<html>
<title> - STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR FISCAL YEAR 2021</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
  STATE, FOREIGN OPERATIONS, AND RELATED PROGRAMS APPROPRIATIONS FOR 
                            FISCAL YEAR 2021

                              ----------                              


                        TUESDAY, MARCH 10, 2020

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

    The subcommittee met at 2:15 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Lindsey Graham (Chairman) 
presiding.
    Present: Senators Graham, Lankford, Moran, Leahy, Shaheen, 
Coons, and Van Hollen.

                   A REVIEW OF FRAGILITY IN THE SAHEL


              opening statement of senator lindsey graham


    Senator Graham. Thank you all for coming. The hearing today 
is on ``A Review of Fragility in the Sahel'', but also, 
opportunities in that region.
    We have two great witnesses: USAID Administrator, Mark 
Green, and Under Secretary of State for Political Affairs, 
David Hale, who I just think just got back from the region. I 
know Mark spent a lot of time there.
    I will have a very quick opening statement.
    The reason the subcommittee is focused on this issue is 
because this is one of the parts of the world where you pay now 
or you pay later, and I would rather pay smartly now.
    It is one of the places in the world where the ground 
military force, in terms of fighting terrorism, is pretty much 
the French. We have a thousand people in the region that are 
enablers for the French ground component.
    We have talked with Secretary of Defense Mark Esper about 
keeping that capability. The French would have a hard time 
operating without our assistance, but they are on the ground in 
Mali and trying to beat back terrorism.
    The countries in the Sahel represent a potential 
opportunity for the American consumer over time, if we can 
develop their economies. There is a fondness in this part of 
the world for the United States, including as a result of U.S. 
programs to eradicate HIV/AIDS and other health, humanitarian, 
and development efforts. The Chinese are playing in Africa, and 
I would like us to show up. Our assistance programs are 
national security programs.
    So, my goal today is to hear about what it is like on the 
ground, what would happen if we lost the security footprint we 
have today, and what could this subcommittee do in the future 
to give you more tools and resources to turn it around before 
it is too late.
    With that, Senator Leahy.


             opening statement of senator patrick j. leahy


    Senator Leahy. Thank you very much. Mr. Green, Mr. Hale, 
good to have you here.
    Over many years, Chairman Graham, I, Senator Coons, and 
others have highlighted the positive impact U.S. foreign aid 
can have on building just societies that are resistant to 
radicalization. I cannot think of anywhere this is more 
urgently needed than in the impoverished and largely-ungoverned 
areas of the Sahel, where, as Chairman Graham has pointed out, 
violent extremist organizations have taken root.
    I hope that today we can talk about the importance of 
government accountability. In the report produced by the U.S. 
Institute of Peace on the causes of extremism, USIP concluded 
that building partners with governments that are committed to 
accountability is the best approach to preventing extremism.
    The report further emphasized that strengthening government 
accountability requires local ownership of development 
programs, and that impunity for security forces that commit 
atrocities fuels extremism, which we have seen in several parts 
of the world, including the Sahel.
    So, accountable governance, locally-led solutions, and 
legitimate use of force. We can easily agree to these in 
principle; it is how to enforce them in practice that can be 
difficult.
    I think we all agree that resources and interagency 
coordination are important, but we also have to do a better job 
of holding governments accountable. Too often we give our 
security partners a free pass for corruption and human rights 
violations in the name of counterterrorism or geopolitical 
competition, and that is an approach that we have seen in the 
past usually backfires.
    Accountable governance and locally-led solutions are also 
required to mitigate violence in the region that is not caused 
by violent extremist organizations. Ethnic tensions, 
competition over dwindling natural resources, and other 
socioeconomic and environmental conditions have led to conflict 
in the Sahel, fueled by many of the same factors that drive 
increased radicalization.
    We should not be in position to ignore or make excuses for 
government corruption and abuse of power. Our values, the input 
of those whose lives are most affected by our decisions, and 
our understanding of the long-term consequences of ignoring or 
making excuses for government corruption and abuse of power, 
should guide our policy. So, I am glad, Mr. Chairman, that you 
are holding this hearing.
    Senator Graham. Thank you. You are always a joy to work 
with on matters like this.
    Senator Green. Not Senator Green. Mark Green. I am sorry. I 
didn't mean to demote you there.
    [Laughter.]
    Mr. Green. You beat me to the punch line.
STATEMENT OF THE HON. MARK GREEN, ADMINISTRATOR, U.S. 
            AGENCY FOR INTERNATIONAL DEVELOPMENT
    Chairman Graham, Ranking Member Leahy, Members of the 
subcommittee, I do appreciate this opportunity to be with you 
to discuss the Sahel Region, its rising violence, and some of 
the ways in which USAID is responding.
    The urgency of this topic is clear. In 2019 alone, more 
than 2,000 civilians were killed by fighting and violence in 
the area where Mali, Burkina Faso, and Niger meet. Since the 
beginning of this year in Burkina Faso alone, 4,000 people are 
being displaced each and every day.
    Now, it would be a mistake to attribute all of this 
violence to extremism or interreligious conflict, but it would 
be just as wrong not to recognize that conditions like 
unresponsive governance, lack of economic opportunity, and 
increasingly limited natural resources, if left unaddressed, 
will make the region even more vulnerable to extremists, their 
ideology, and methods of recruitment.
    The Sahel, as you know, is a vast, complex region, touching 
at least 15 different countries. It is not so much a set of 
nation-states as networks of informal trade migration routes 
connecting clusters of often ethnocentric communities. Borders 
are porous, and government institutions mean little in the 
daily lives of most residents.
    While competition from limited resources has existed for 
decades, if not centuries, traditional systems and institutions 
serve to reconcile differences in mostly peaceful ways. But, 
population pressures, drought and flood cycles, environmental 
degradation, and other forces have eroded those institutions in 
recent years. The situation has been made even worse by corrupt 
political elites, who often resort to inflammatory media 
messaging in ways that raise tensions and reinforce dangerous 
ethnic and religious stereotypes.
    Dangerous groups bringing their own violent tendencies to 
the region have made things even more combustible. They include 
criminal gangs, arms dealers, and more recently, extremist 
groups seeking to expand their power.
    There are at least five major violent extremist groups 
active in the region and dozens of smaller, loosely affiliated 
ones. Taken together, they have killed tens of thousands of 
people and displaced millions more. Malicious, often ethnically 
based, are forming as a response to government inability to 
provide security for their communities.
    Working closely with State and others, USAID has been 
working on a range of initiatives to help respond to the 
growing crisis:
    Our humanitarian assistance aims to relieve suffering.
    Our development assistance aims to help partners restore 
economic hope and resolve conflict.
    We focus on specific areas of vulnerability, working to 
alleviate acute pressures while simultaneously fostering the 
capacity to withstand future shocks.
    Much of our work is rooted in agriculture. We finance the 
World Food Program to pay, for example, subsistence-level 
individuals in food in exchange for their labor to build 
community assets. For example, building community wells that 
allow various groups to come together around a central 
institution is a way of reinforcing positive communications.
    Our Feed the Future investments enhance market-based 
opportunities for farmers and help communities to become more 
resilient in the face of an increasingly complex set of risks.
    We partner with Peace Observers, who closely monitor local 
tensions and try to act as early warning signals for disputes 
and conflicts.
    We strive to accurately diagnose local drivers of conflict 
and then respond accordingly.
    When tensions are communal in nature, our programs use 
constructive joint projects, as I just mentioned, to reinforce 
cooperation and coexistence.
    When conflict becomes associated with violent extremism, we 
help to counter recruitment efforts by extremist groups.
    We work with governments to enhance their CV response 
strategies, as well as responsiveness to basic citizen needs.
    Last fall, we launched our Sahel Development Partnership 
(SDP). SDP is an expansion of our integrated programming 
approach that will focus first on Burkina Faso and Niger before 
expanding elsewhere. It aims to address the intertwined nature 
of recurrent social, political, and environmental crises. It 
layers resources strategically from across different sectors 
and funding streams.
    To complement SDP, we have several broad initiatives that 
further target the underlying conditions of responsibility. Our 
new Bureau for Resilience and Food Security, which I am proud 
to announce became operational yesterday, will help us address 
the interconnected areas in a more holistic way.
    In summary, Members of the subcommittee, we believe the 
Sahel is a region that requires flexible programs to address 
localized conflicts and stresses and recognize that people 
often self-identify in terms that crosses borders.
    Through the programs I have described and others, we seek 
to build resilience, increase constructive options and 
opportunities for individuals, especially youth, resolve 
conflict through tailored mediation and reconciliation 
programs, and promote peace and stability-affirming messages to 
counter-extremist propaganda.
    We pledge to continue to work closely with the Departments 
of State and Defense on a coordinated whole-of-government 
approach in the region, and we welcome your input and counsel 
and appreciate your ongoing support.
    Thank you, Mr. Chairman.

    [The following graphics were furnished by USAID to be 
included with Mark Green's statement:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [The statement follows:]
                 Prepared Statement of Hon. Mark Green
    Chairman Graham, Ranking Member Leahy, distinguished Members of the 
subcommittee: Thank you for this opportunity to discuss the Sahel 
region, the rising violence in many parts of that region, and some of 
the ways in which USAID is responding with humanitarian assistance, 
investments in community-level institution strengthening, and economic 
development programming.
    The urgency of this topic is clear. Across the Sahel, the recent 
escalation of violence has resulted in thousands of deadly attacks and 
four-times the number of conflict-related fatalities compared to 2012. 
At the epicenter of conflict--where Mali, Burkina Faso and Niger meet--
more than 2,000 civilians were killed in 2019 alone. The situation has 
further deteriorated in 2020; in Burkina Faso, violence has displaced 
an average of 4,000 people each day since the year began.
    It would be a mistake to attribute all of this violence to 
extremism or inter-religious conflict. But when conflict in the region 
is combined with persistent instability, extreme poverty, deteriorating 
environmental conditions, weak and often corrupt governance, and lack 
of economic opportunity, it offers fertile ground for extremists who 
seek to advance their own ideology and power.
                     sahel: perception and reality
    To understand the challenges of the Sahel, it is essential to 
recognize how large and complex the region is. Many people think of the 
Sahel as a handful of nations along the ``coast'' of the Sahara. In 
reality, it is a vast region that stretches from southern Mauritania to 
northern Ethiopia, touching at least 15 countries. It is not so much a 
modest set of nation-states as a vast, intricate network of informal 
trade and migration routes that connect clusters of often very ethno-
centric communities. Borders are porous at best, and central government 
institutions are of little relevance to the daily lives and needs of 
most people.
    A significant portion of the people in the Sahel are always in 
motion, moving along trade and migration central routes, as well as 
seasonal herding and grazing patterns. As one observer told me during 
my visit to Nigeria last August, in the West we see the brush and sands 
of the Sahel and Sahara as barriers, while Africans see the landscape 
as an inviting ocean to be sailed upon from place to place.
                       traditions under pressure
    However, it is just as true that land and resources are precious 
and limited, and competition for those resources between and amongst 
ethnic groups, licit and illicit traders, farmer-herders, and yes, 
faith communities, has existed for decades, if not centuries. Over the 
years, disputes would arise and violence sometimes erupted, but the 
consequences and costs were managed through traditional dialogue, 
reconciliation, and mutually beneficial arrangements.
    But those traditional systems and institutions have been eroded in 
recent years by an array of shocks and stresses. Population pressures, 
drought-and-flood cycles, environmental degradation, and other forces 
have intensified poverty and suffering. With up to 80 percent of people 
living on less than $2 a day, many families struggle to feed themselves 
because they lack the livelihoods to purchase or produce sufficient 
quantities of food. Loss of human lives to hunger, malnutrition and 
disease, massive displacements of people, and shattered economies has 
made poverty more widespread in the Sahel than nearly any other region 
in Africa.
    Modern government institutions that have supplanted many 
traditional community and Tribal structures have proven too weak and 
ill-equipped to respond or serve the vital role of mediation and 
conflict resolution. In the minds of many observers, the situation has 
been made even worse by corrupt and self-serving political elites. 
During my Nigeria visit, multiple civil society and faith-based leaders 
claimed these elite often politically exploit conflicts and disputes to 
shore up their own political constituencies and expand their public 
influence. These politicians use inflammatory radio and social media 
messages in ways that raise tensions, reinforce dangerous stereotypes, 
and recast disputes over resources as ideological or religious 
confrontations.
    To make the mix even more combustible, a range of groups are 
bringing their own violence to the region. They include criminal gangs 
exercising control over lucrative illicit trade of arms, cigarettes, 
and drugs, as well as extremist groups seeking to expand their power or 
advance an ideological agenda. Many work to exploit local tensions and 
grievances, economic and social marginalization, and abuses by 
government officials and security forces to recruit disaffected young 
people into their ranks. Militias, often ethnically based, are forming 
as a response to governments' inability or unwillingness to provide 
security for communities. When governments do act, poorly trained, 
poorly led officials and security forces can often make things worse 
when they respond to incidents of insecurity and unrest with severe 
crackdowns and indiscriminate arrests. This sometimes exacerbates 
grievances against governments, sows greater mistrust, and wears down 
local resistance to recruiters' rhetoric and worldview.
                   extremist groups already operating
    That violent extremist groups are operating in the Sahel and 
surrounding areas has become all too clear in the last several years. 
There are currently five major violent extremist groups active 
throughout the region, including Boko Haram, the Islamic State in the 
Greater Sahara (ISGS), Islamic State West Africa (ISWA), Ansar al-
Islam, and the Al Qa'ida affiliate Jamaat Nusrat al-Islam wal 
Muslimeen, known as JNIM. There are also dozens of smaller, loosely-
affiliated extremist groups. Operating across vast spaces and comprised 
of more than ten thousand extremists, their acts of violence have 
killed tens of thousands of people and displaced millions more.
    The number of attacks linked to Al-Qa'ida affiliates and the 
Islamic State has tripled in recent years, and the number of associated 
fatalities has doubled. Over time, these armed groups have overrun 
government-led forces in strategic towns in Mali and Nigeria, turning 
swaths of territory into no-go zones for governments and security 
forces for extended periods of time. As the Committee will recall, in 
2017, ISGS fighters ambushed American Special Operations soldiers and 
Nigerien partner forces, killing four Americans and five Nigeriens. 
Previous attacks targeting hotels and restaurants in Bamako, 
Ouagadougou, and in Cote d'Ivoire, killed nearly one hundred. Driven by 
competition and the pursuit of personal, ethnic, ``religious,'' and 
economic interests, these groups have taken a terrible toll on already 
fragile and economically marginalized communities.
                           current usaid work
    Working with the Department of State and others, USAID has 
developed a range of initiatives to help respond to the growing Sahel 
crisis. Our humanitarian assistance aims to help relieve suffering. Our 
development assistance aims to help partners restore economic hope and 
prevent and resolve conflict. More generally, our work aims to help 
partners in their efforts to turn back the spread of criminal and 
extremist influence. Our implementation involves partnering with a 
diverse range of stakeholders, including community leaders, public 
officials, and faith and interfaith groups.
    As a reflection of the priority we place on the region, we recently 
launched our new Mission in Niger. We appreciate the support from 
Congress to open this new Mission. We have also recently opened a new 
office in Cameroon. These moves complement our current missions in the 
region and our Senegal-based Sahel Regional Office.
               programs addressing underlying conditions
    As we all know, the suffering and extreme poverty confronting 
people in the Sahel is intensified by a combination of underlying 
conditions, including a pervasive lack of economic opportunity, 
population pressures, recurrent natural disasters, and environmental 
degradation. To help address these and other conditions, our programs 
focus on specific areas of vulnerability, working to alleviate acute 
pressures while simultaneously fostering in people and communities the 
capacity to withstand future shocks.
    We invest in the Sahel on multiple levels, with agriculture as our 
base. First, we finance the World Food Program to work with local 
groups to pay subsistence-level people in food in exchange for their 
labor to build community assets (like ponds) that regenerate land and 
harvest water. At the same time, we engage with larger non-governmental 
organizations to increase vulnerable farmers' access to seeds and teach 
them to use land more productively, while mobilizing communities to 
participate in the food-for-assets campaigns.
    Next, our Feed the Future investments, like those in Niger, Nigeria 
and Mali, enhance economic opportunities in market-based agriculture 
for farmers who are more stable and help communities across the Sahel 
sell their surplus crops and economically diversify so they are more 
resilient in the face of an increasingly complex set of risks, like 
drought and price shocks. We have paired these investments with others 
that improve access to water, sanitation, hygiene, and healthcare to 
help address the individual and community-level vulnerabilities.
    A specific example of USAID's effort to address underlying 
conditions is our flagship Resilience in the Sahel Enhance (RISE) 
program. RISE, which is active in Burkina Faso and Niger, employs a 
layered, multi-sector approach to reducing the chronic vulnerability of 
targeted populations. This integrated program focuses on expanding 
economic opportunities and livelihoods, improving governance, and 
bolstering the delivery of essential services. In Niger, RISE 
programming has helped smallholder and pastoralist farmers connect to 
markets and fostered an environment for private-sector investment. It 
has also strengthened targeted value chains and helped communities 
better manage their own natural resources.
    These investments in building individual- and community-level 
resilience are one prong of USAID's approach to address some of the 
underlying conditions that exacerbate poverty and suffering in the 
Sahel. But we are also focused on strengthening early warning and 
monitoring capacity so that stakeholders can intervene before key food 
security and nutrition indicators begin to deteriorate. To that end, 
we've recently contributed an additional $7.5 million to the Permanent 
Interstate Committee for Drought Control in the Sahel (Comite permanent 
inter-Etat de lutte contre la secheresse au Sahel [CILSS]), an African-
owned multilateral institution partly funded by member states?. The 
contribution brings our funding for CILSS through this award to $16.8 
million, and will enable them to improve the quality and reach of their 
seasonal forecasts and crop-monitoring reports--vital tools for farmers 
and governments in the harsh and unpredictable environment that 
characterizes much of the region.
   programs on peacebuilding, conflict resolution and reconciliation
    One of the lessons USAID has learned over the years is that it is 
often local disputes and community grievances that are the main drivers 
of tension and violence. When competition for resources is intense and 
individuals or communities feel marginalized or aggrieved, it is 
essential that there are institutions and voices actively promoting 
dialogue, understanding, and reconciliation.
    The irreplaceable first step in most of our work is an informed 
analysis of conditions and actors. We strive to determine what is 
actually driving conflict, not what we assume is doing so. As leader 
after leader told me during my travel to Nigeria, not every dispute is 
religious in nature. Not every conflict is ethnic. We need to tailor 
our approaches to address real causes.
    In many parts of the region, we partner with ``peace observers'' 
who closely monitor local tensions and act as an early warning of sorts 
for disputes which, if left unchecked, might erupt in a given 
community. Peace observers help us to diagnose the nature of the 
problem so we can help resolve or reduce tensions.
    When disputes or tensions are intercommunal in nature, our programs 
will often lead to constructive joint projects that can build 
cooperation and coexistence. For example, where water scarcity is a 
source of contention, we can facilitate the drilling of boreholes with 
shared access.
    More broadly, USAID's Voices for Peace program, active in five 
countries across the region, uses radio broadcasts to strengthen social 
cohesion by countering misinformation and amplifying moderate voices of 
leadership?. The broadcasts are tailored to the local needs and 
dynamics of each community?. They promote shared values.
               preventing the spread of violent extremism
    As I have indicated, much of the work we do in the Sahel aims to 
address drivers of stress and tension by accurately diagnosing the 
specific nature of conflict. The reality is that violent extremism 
already has a presence and is looking to expand its influence and 
power, as well as spread its toxic ideologies. An important part of our 
work is trying to counter efforts by these groups to recruit more 
individuals and groups to their cause. We work with governments to 
enhance their countering violent extremism (CVE) response strategies, 
strengthen overall response to citizen needs, and promote messaging 
that counters extremist propaganda and misinformation.
    We target our assistance to improve the resilience of vulnerable 
communities targeted by extremist recruiters. For example, in 
northeastern Nigeria--where Boko Haram and ISIS West Africa continue to 
wreak havoc--we are implementing programs that provide entrepreneurial 
training, apprenticeship, and short-term employment opportunities, as 
well as agricultural livelihood activities. Each is specifically 
designed to erode pockets of support for these groups.
    In areas across the Lake Chad Basin, we work to amplify credible 
voices of tolerance and moderate ideologies. We are working with a 
broad network of radio stations and social media outlets--a key source 
of news and information--to disseminate messaging with as far a reach 
as possible. In Niger, our assisted partners are able to reach more 
than 90 percent of the target audience.
            looking ahead: the sahel development partnership
    Last Fall, we launched the Sahel Development Partnership (SDP), an 
expansion of our integrated programming that is focusing first on 
Burkina Faso and Niger before expanding elsewhere. The SDP's focus area 
consists of the Centre-Nord, and Est Provinces of Burkina Faso and the 
Tillaberi Region of Western Niger. Historically, this area has served 
as a crossroads for various ethnic communities, including nomadic 
herders and settled farmers who have shared the same marginal land and 
limited water resources for centuries. Communities in the SDP's focus 
area face shocks and stresses that include droughts, floods, food-price 
volatility, environmental degradation, population pressure, health 
crises, corruption, fragility, and conflict. As a result, millions of 
people are chronically vulnerable and food-insecure, and even moderate 
droughts result in large-scale humanitarian crises.
    Through the SDP we are applying an integrated, layered development 
approach targeting areas most directly affected by cross-border 
instability. This approach layers resources strategically, from across 
different sectors and funding streams, in three lines of effort: CVE; 
stabilizing communities; and building greater resilience within 
communities.
    As part of a broader national security partnership with the 
Governments of Burkina Faso and Niger, civil society, and affected 
communities, we aim to demonstrate how holistic programs can help halt 
the spread of violent extremist groups, avert costly humanitarian 
crises, and stem the flow of destabilizing migration. The SDP will 
stabilize focus areas of the target countries by building local 
communities' resilience and capacity to counter violent extremism 
through rapid-response programs such as moderate voice radio programs, 
local governance support, and greater access to financial services in 
the agricultural sector.
    USAID is accelerating implementation of this new approach in 
coordination with the U.S. Departments of State and Defense, and other 
U.S. Government Departments and Agencies. Through the SDP, USAID 
intends to demonstrate within 2 years that it can help halt the spread 
of violent extremist groups, avert costly humanitarian crises, and stem 
the flow of destabilizing migration in a setting where recent trends 
are decidedly negative.
    The SDP's approach focuses on strengthening community cohesion, 
resolving grievances and local conflicts, building resilience, and 
providing economic alternatives to counter the emotional appeal of 
extremists. Rather than treating each set of problems as discrete 
development challenges that require separate interventions, the SDP 
attempts to address the intertwined nature of recurrent social, 
political, and environmental crises with the emergence of violent 
extremism, which overlap, both causally and geographically, within 
Burkina Faso and Niger.
    In parallel and complementary to the SDP, we have several large, 
ongoing initiatives that further target underlying conditions of 
vulnerability--including in the areas of healthcare, food security, and 
livelihoods. USAID is coordinating with our partners across the 
humanitarian and development spectrum to ensure that our programs are 
complementary and reinforcing.
    Long-term, multi-sector resilience programming builds sustainable 
local capacities to help families weather shocks and reduce the need 
for humanitarian assistance. USAID's resilience programming allows 
households to increase their assets, savings, and access to markets 
despite exposure to the stresses and crises described above. Resilience 
programs enhance access to financial services, including savings, 
credit, and insurance; improve the management of water for productive 
and household use; promote the reclamation of land and the introduction 
of conservation agriculture; develop value-chains for agriculture and 
livestock, including by linking rural producers to high-demand urban 
and coastal markets; improve health outcomes, including in maternal and 
child health and nutrition, voluntary family planning, and hygiene and 
sanitation; build the capacity of local governments to deliver high-
quality healthcare, nutrition, and sanitation; and strengthen the 
capacity of government and community organizations to mitigate conflict 
and respond to shocks such as droughts and floods.
    In summary, members of the Committee, we believe the Sahel is a 
region that requires flexible programs that address localized conflicts 
and stresses, and recognizes people often self-identify in terms that 
cross borders and ignore modern government institutions. We seek to 
build resilience, increase constructive options and opportunities for 
individuals (especially youth), resolve conflict through tailored 
mediation and reconciliation programs, and promote peace-and-stability 
affirming messages to counter extremist propaganda. We would welcome 
the opportunity to expand our work. We pledge to continue to work 
closely with the Departments of State and Defense on a coordinated, 
whole-of-government approach in the region. We welcome your input, 
counsel, and appreciate your ongoing support.
    Thank you for allowing me to speak with you today, and I welcome 
your questions.
STATEMENT OF THE HON. DAVID HALE, UNDER SECRETARY OF 
            STATE FOR POLITICAL AFFAIRS, U.S. 
            DEPARTMENT OF STATE, WASHINGTON, DC
    Mr. Hale. Hello. Good afternoon, Chairman Graham, Vice 
Chairman Leahy, Members of the subcommittee. It is a pleasure 
to be here today with Administrator Green to discuss our 
efforts toward addressing the causes of fragility and violence 
in the Sahel.
    This administration recognizes that instability in Africa, 
and particularly in the Sahel, threatens American national 
security interests and undermines our diplomatic goals.
    I have traveled twice to the Sahel in the past year, and I 
visited four of the five countries there. My second trip, last 
month, affirmed for me the driving force behind the Sahel 
strategy. Security conditions are deteriorating as the key 
actors in Mali fail to fully implement the Algiers Accord.
    American engagement is crucial. During my trip, I made 
clear that we are not abandoning the region. To the contrary; 
we are bolstering our diplomatic engagement. I assured African 
leaders that, as the Department of Defense conducts its 
combatant command reviews, we will not undertake hasty or 
destabilizing adjustments to our military posture, but our 
continued investment requires improved performance by our 
partners.
    We have a comprehensive and balanced approach. Military 
intelligence and law enforcement strategies are vital to our 
success, but they cannot replace diplomatic and development 
initiatives.
    Our strategy promotes inclusive political systems, advances 
regional security, and encourages economic growth.
    Our diplomatic engagement focuses on three primary 
elements: Increasing state legitimacy, supporting the peace 
process in Mali, and improving coordination with our partners.
    Terrorists and criminals exploit areas that lack state 
presence. With the support of America and our partners, Sahel 
governments urgently need to reassert control over ceded 
ground, establish a security presence, and rebuild trade 
relationships with populations.
    Participation of women at all levels is essential.
    We have already doubled our efforts to press for 
implementation of the Algiers Accord. On March 8, the State 
Department announced the appointment of Dr. J. Peter Pham as 
the special envoy for the Sahel. And, in his capacity, Dr. Pham 
will increase American diplomatic engagement and coordination 
with the international community.
    I have asked him to focus on five tasks:
    One, coordinate existing strategies with international and 
regional partners;
    Two, encourage member states of the Economic Community of 
West African States (ECOWAS) to assume a larger role in 
affected countries;
    Three, promote rapid implementation of the Algiers Accord;
    Four, improve the effectiveness of the Multi-dimensional 
Integrated Stabilization Mission in Mali;
    And five, develop initiatives for strengthened state 
authority and good governance.
    Mali remains a focal point of terrorist activity in the 
region. Together in Bamako last month, my French counterpart 
and I delivered a clear message to Malian President Keita that 
we expect full implementation of the Algiers Accord.
    We also urged him to follow through on the commitments he 
made at the Pau Summit in France. I emphasized that in the 
absence of sufficient progress, America is prepared to support 
altering the United Nations Multidimensional Integrated 
Stabilization Mission in Mali (MINUSMA's) mandate and to 
sanction individuals identified as spoilers.
    We are engaging directly with regional partners to mobilize 
their efforts, to shore up their own security, and provide 
greater support to the Sahel countries.
    The D-ISIS Coalition, which plans to hold its first meeting 
in the region in April, will provide best practices on info 
sharing and counterterrorism.
    ECOWAS and its member states have a vital role to play 
alongside the G5. Instability in the Sahel is spreading to 
coastal Africa, directly threatening Benin, Cote d'Ivoire, 
Ghana, Guinea, and Togo. We are expanding our assistance to 
these countries to meet the threat.
    Effective implementation of our goals requires a 
coordinated, integrated approach across U.S. Government 
efforts. The Department of State-USAID Joint Strategic Plan 
prioritizes improved security conditions and the promotion of 
good governance, democracy, respect for human rights, 
accountability, rule of law, and women's full participation in 
society.
    In 2018, the State Department, USAID, and the Department of 
Defense completed an interagency review to explore more 
effective means to promote stability in areas affected by armed 
conflict. The Stabilization Assistance Review (SAR) reflected a 
recognition that we need to be selective and strategic in the 
use of American resources.
    The State Department operationalized the SAR in 11 
countries, including the Central African Republic, Mali, Niger, 
Nigeria, and South Sudan. Each of these missions is now 
implementing coordinated and integrated stabilization 
strategies.
    The recently-passed Global Fragility Act (GFA) presents an 
excellent opportunity to build and expand upon these reform 
initiatives. We are working with our interagency partners to 
develop the strategy called for by the legislation, and we look 
forward to consulting and collaborating with stakeholders and 
with you in Congress as we implement the act and draft the 
associated strategy.
    Mr. Chairman, in spite of our plan and efforts already 
underway, we face serious obstacles. American officials cannot 
spend sufficient time in conflict-affected areas to build 
relationships and better understand conflict dynamics. We are 
working to improve our ability to identify and report on early 
warning signs of violent conflict, and we look forward to 
working with Congress on these efforts.
    We appreciate the flexibility provided by the Relief and 
Recovery Fund over recent years to transfer funding across 
accounts, and we would welcome similar flexibilities for the 
new Prevention and Stabilization Fund.
    Mr. Chairman, Members of the subcommittee, thank you for 
your bipartisan support and for facilitating this discussion on 
a region vital to American national security. I look forward to 
your comments and questions.

    [The statement follows:]
                 Prepared Statement of Hon. David Hale
    Good afternoon Chairman Graham, Vice-Chairman Leahy, and Members of 
the subcommittee. It is a pleasure to be here today with Administrator 
Green to discuss our collective efforts toward addressing the causes of 
fragility and violence in the Sahel. I appreciate your focus on these 
issues and look forward to discussing our shared objectives in this 
critical region.
    The President's National Security Strategy directs the State 
Department to strengthen institutions in fragile states and work with 
political reformers and civil society to advance our shared interests. 
The Global Fragility Act of 2019 (GFA) also speaks to the need to 
stabilize conflict-affected areas and prevent violence and fragility 
globally.
    This administration recognizes that fragility and instability in 
Africa, and particularly in the Sahel, threaten American interests and 
undermine our diplomatic goals. A fragile and unstable Sahel region 
enables the spread of terrorism, facilitates transnational organized 
crime, stifles economic growth, thwarts democratic institutions, and 
prompts destabilizing migration.
    Today's hearing is an opportunity to discuss the complexities of 
these threats and the realities facing many of our partners. The 
broader Sahel is an immense, sparsely populated territory, covering 
more than 3,300 miles from the Atlantic Ocean to the Red Sea. Farmers, 
herders, traders, traffickers, and terrorists all inhabit this enormous 
expanse. I have traveled twice to the Sahel in the past year, and saw 
last month that the situation had significantly deteriorated since my 
first visit. My trip affirmed the driving force behind our Sahel 
strategy: security conditions throughout the region are worsening as 
the key players in Mali fail to fully implement the Algiers Accord 
nearly 5 years after its signing.
    American engagement is crucial. I made clear to our partners that 
America is not abandoning the region. To the contrary, we are 
bolstering our diplomatic engagement through the appointment of a 
Special Envoy. I assured African leaders that, as the Department of 
Defense conducts its Combatant Command reviews, we will not undertake 
hasty or destabilizing adjustments to our military posture. But our 
continued investment requires improved performance by our partners.
    Addressing fragility in the Sahel--in particular in Mali, Niger, 
and Burkina Faso--requires a comprehensive and balanced approach. 
Military, intelligence, and law enforcement strategies are vital for 
success, but they cannot replace diplomatic and development 
initiatives. Our strategy promotes inclusive and just political 
systems; advances regional security by combatting violent extremists 
and traffickers; and encourages economic growth and opportunity through 
sustainable development and increased American investment. Our 
diplomatic engagement focuses on three primary elements: improving 
state legitimacy; supporting the peace process; and improving 
coordination with our partners.
    Terrorists and transnational criminals exploit areas that lack 
state presence. These groups recruit from, extort, and terrorize 
marginalized communities, many of which have been victimized by 
security forces. As governments retreat from increasing violence, 
extremist organizations further delegitimize governments by providing 
services in abandoned areas. The number of refugees and internally 
displaced persons is increasing at an alarming rate across the region 
and signal a growing humanitarian crisis. With the support of America 
and our partners, Sahel governments and their neighbors urgently need 
to reassert control over ceded ground, establish a rights-respecting 
and capable security presence, and rebuild frayed relationships with 
populations. Meaningful participation by women at all levels, from 
policy negotiations to peacekeeping, is essential.
    A viable political process in Mali is a necessary condition for 
good governance to prevail. Our diplomatic efforts are focused on 
supporting the 2015 Algiers Peace Accord, which remains the best 
mechanism for achieving a peaceful and reconciled Mali. We will press 
and incentivize signatories to implement the Accord.
    Improved coordination will help us achieve our state legitimacy and 
peace process objectives. On March 8, the State Department announced 
the appointment of Dr. J. Peter Pham as the Special Envoy for Sahel 
Stabilization. In this capacity, Dr. Pham will increase American 
diplomatic engagement and coordination with West African governments, 
as well as the French, the European Union, and other international 
partners. Crucial to this effort will be employing integrated, 
coordinated approaches to the region.

    I have asked Dr. Pham to focus on the following five tasks:

    1.  Coordinate existing strategies with international and regional 
partners;
    2.  Encourage members of the Economic Community of West African 
States (ECOWAS) to assume a larger role in working with Mali, the G5 
Sahel, and affected countries;
    3.  Promote rapid implementation of the Algiers Accord;
    4.  Improve the effectiveness of the Multidimensional Integrated 
Stabilization Mission in Mali (MINUSMA); and
    5.  Develop and propagate initiatives for strengthened state 
authority and good governance.

    Mali remains a focal point of terrorist activity in the region. 
Years of political conflict and stalled implementation of the 2015 
Algiers Accord have created a climate of instability that has permitted 
terrorism to take root and thrive. Terrorist groups in central Mali 
exacerbate and exploit intercommunal tensions, particularly in areas 
that lack state presence or have been victimized by armed groups or 
state security forces. Terrorists enjoy freedom of movement in northern 
and most of central Mali, and transit between Libya, Niger, and Burkina 
Faso to resupply, conduct raids, and enrich themselves through illicit 
trafficking along trade routes. The potential for foreign fighter 
migration between North Africa, the Middle East, and the Sahel is a 
significant concern, in part because of countries' porous borders.
    Together in Bamako last month, my French counterpart and I 
delivered a clear message to Malian President Keita that we expect full 
implementation of the Algiers Accord. The government and signatory 
armed groups should fulfill by June the priority measures laid out in 
MINUSMA's mandate. We also urged President Keita to follow through on 
the commitments made at the Pau Summit convened by the French in 
January.
    I emphasized that, in the absence of sufficient progress, America 
is prepared to support altering MINUSMA's mandate and to sanction 
individuals who are identified as spoilers to the peace process.
    Throughout the Sahel, we are employing coordinated diplomatic, 
development, and security initiatives to emphasize respect for human 
rights and civilian protections. Our programs enhance local leaders' 
ability to provide more effective government services; train local law 
enforcement to encourage cooperation with the communities they protect; 
and improve the capacity of security forces to interact more 
productively with civilian actors. Over the last 2 years, the State 
Department has obligated over $195 million in security assistance to 
the G5 Sahel countries, including over $69 million to Burkina Faso, 
which is also the largest recipient of American bilateral assistance 
among the nations of the G5 Sahel Joint Force.
    The G5 Sahel Joint Force (Burkina Faso, Chad, Mali, Mauritania, and 
Niger) was launched in 2017 to coordinate counterterrorism operations 
among member countries. The G5 Sahel is not yet able to disrupt the 
growing terrorist footprint across the Sahel, but has potential as a 
coordination mechanism. French Operation Barkhane, with 5,200 troops on 
the ground, plays a crucial role in the counter-terrorism fight. The D-
ISIS Coalition, which plans to hold its first meeting in the region in 
April, will provide best practices on intelligence sharing and other 
counterterrorism tools to the countries of West Africa.
    ECOWAS and its member states have a vital role to play alongside 
the G5 Sahel. These countries can contribute a range of capabilities 
and expertise to address problems in the Sahel. We are engaging 
directly with regional partners to mobilize their efforts to shore up 
their own security and provide greater support to the Sahel countries, 
as announced during the September 14 ECOWAS Heads of State Summit on 
Terrorism.
    Instability in the Sahel is spreading to the coastal states of West 
Africa, directly threatening the heart of American interests in the 
region. Benin, Cote d'Ivoire, Ghana, Guinea, Togo are all at risk. We 
are expanding our assistance to these countries to develop accountable, 
stable security institutions; respect for human rights; and good 
governance. In Togo, we supported government efforts to overhaul 
legislation to distinguish between criminals and maritime pirates. In 
Ghana, we supported the development of border security protocols and 
best practices to help confront the spread of violent extremism. We 
also support regional efforts to improve coordination and information 
sharing between military and security services through the Accra 
Initiative.
    We support Sahelian countries' efforts to individually and 
collectively exercise greater leadership in addressing their fragility 
and security challenges. The African Union, its regional economic 
communities, and its member states are seeking to develop their own 
Continental Early Warning System and lead with diplomatic responses 
when potential threats arise. These efforts represent a noteworthy 
intention, but American leadership will be required to nurture and 
strengthen them over the long-term.
    Effective implementation of our goals requires a coordinated and 
integrated approach across U.S. Government efforts. The Department of 
State-USAID Joint Strategic Plan prioritizes improved security 
conditions and the promotion of good governance, democracy, respect for 
human rights, accountability, rule of law, and women's full 
participation in society. In July 2019, the Office of Foreign 
Assistance Resources, together with our Bureau of Conflict and 
Stabilization Operations and USAID, completed the Strategic Prevention 
Project. The project's final report underscores that our assistance can 
prevent violent conflict when closely coordinated with diplomacy and 
aligned with host-nation and local civil society. The report identifies 
a series of actions for the State Department and USAID to better align 
assistance to fragile states. We are working towards implementing these 
recommendations.
    In 2018, the State Department, USAID, and the Department of Defense 
completed a wide-ranging, inter-agency review to explore more effective 
means to promote stability in areas affected by armed conflict. The 
Stabilization Assistance Review (SAR) reflected a recognition that we 
need to be more selective and strategic with how we use American 
resources and demonstrate a return on investment for the American 
taxpayer. The SAR outlines an improved framework for coordinating and 
targeting resources to stabilize conflict-affected states based on our 
national security interests and an assessment of where we can have the 
greatest impact. The State Department operationalized the SAR in 11 
countries, including the Central African Republic, Mali, Niger, Nigeria 
and South Sudan. Each of these missions is now implementing coordinated 
and integrated stabilization strategies.
    The recently-passed GFA presents an opportunity to build and expand 
upon these strategic prevention and stabilization assistance reform 
initiatives. We are working with our interagency partners to develop 
the strategy called for by the legislation. We look forward to 
consulting and collaborating with stakeholders and Congress as we 
implement the GFA and draft the associated strategy.
    On the security front, the Trans-Sahara Counterterrorism 
Partnership is a multi-year, initiative to build long-term capacity in 
the Sahel and North Africa to address security threats and conditions 
exploited by terrorists and other malign actors. Coordinated across the 
State Department, USAID, and the Department of Defense, this 
partnership provides American law enforcement, military, development, 
and public diplomacy expertise and resources to build and sustain 
regional partners' capabilities.
    Mr. Chairman, in spite of our plan and strong efforts already 
underway, we do face obstacles. First, in such insecure environments, 
American officials cannot spend sufficient time in conflict-affected 
areas to build relationships and better understand conflict dynamics. 
We are working to improve the ability of our personnel to identify and 
report on early warning signs of violent conflict. We look forward to 
working with Congress on these efforts. We appreciate the flexibility 
provided by the Relief and Recovery Fund over recent years to transfer 
funding across accounts. We welcome similar flexibilities for the new 
Prevention and Stabilization Fund established pursuant to the GFA. This 
authority ensures we have the tools at our disposal to meet the needs 
on the ground.
    Mr. Chairman and Members of this subcommittee, thank you for your 
bipartisan support and for facilitating this discussion on a region 
vital to American national security.

    Senator Graham. Well, thank you. Thank you both, and please 
pass on to the people who work for you in these regions how 
much we appreciate their sacrifice and the dangers they face.

  FOREIGN ASSISTANCE CUTS PROPOSED IN FISCAL YEAR 2021 BUDGET REQUEST

    Mr. Hale, do you agree with me that now is probably not 
time to cut the Function 150--International Affairs account by 
20 percent?
    Mr. Hale. Well, we are obviously waiting to see what the 
results will be--are of the DOD Force Posture Review, so I 
would say that I would really like to see. It depends on what 
the review recommends, what the outcome is.
    Senator Graham. I am talking about a cut to the account as 
a whole.
    Mr. Hale. Yes. Well, fewer resources means obviously that--
--
    Senator Graham. Yes.
    Mr. Hale [continuing]. Less impact.

        COMBATING TERRORISM AND EXTREMISM/FRENCH MILITARY ACTION

    Senator Graham. Let's talk about the impact to the United 
States. Is the Islamic State of Iraq and Syria (ISIS) present 
in this region of the world?
    Mr. Hale. Yes.
    Senator Graham. What are they called, just ISIS?
    Mr. Hale. ISIS is one name. They--frankly, these groups 
transmogrify frequently. There is a dynamic where the 
recruitment crosses different labels. We have at least five or 
six large organizations made up of ever-shifting groups.
    Senator Graham. Do they have extraterritorial designs? 
Would they attack the United States if they could?
    Mr. Hale. The groups present now do not have the capacity 
to do that, but they certainly are ambitious in the long run 
and we have to be--take preventative steps.
    Senator Graham. It is just a capability problem, not a will 
problem; is that correct?
    Mr. Hale. That is why it is important to take a 
preventative course of action.
    Senator Graham. Okay. So, the preventative course of 
action, is the French ground forces--are they making a 
difference?
    Mr. Hale. I think they are, yes. There needs to be more 
done. They have just increased the number of soldiers on the 
ground after the tragedy that they encountered, and we are very 
closely collaborating with them.
    I think the important piece that the State Department can 
offer in this is enhanced diplomacy. So, obviously 
Administrator Green can speak of the development and assistance 
side; our DOD colleagues on that piece.
    Senator Graham. Yes.
    Mr. Hale. But regardless of what happens in terms of the 
Force Posture Review, we are going to be stepping up our 
diplomatic engagement.
    Senator Graham. So, Mr. Green, Mark, what would happen if 
the French left or the French were not adequately supported by 
the U.S. Armed Forces on the ground for the people that work 
for you?
    Mr. Green. I would say that you would see an acceleration 
in displacement would be the most immediate effect, which--I 
mean, displacement is already reaching historic levels. I think 
it would accelerate.
    Along with that, obviously the humanitarian suffering.
    And, from my perspective, the conditions that lead too 
easily to despair. And despair, as we know, is a condition that 
is too easily exploited by those that seek to expand their 
territory and offer a contrary point of view to ours.
    Senator Graham. Who are the French fighting on the ground?
    Mr. Green. I am not sure I can speak to it in that each 
country represents----
    Senator Graham. Well, it is terrorist organizations; right?
    Mr. Green. Definitely.
    Senator Graham. Do you agree with that----
    Mr. Green. In terms of which ones, I cannot----
    Senator Graham [continuing]. Mr. Hale, that the French 
presence----
    Mr. Hale. Yes, sir.
    Senator Graham [continuing]. On the ground----
    Mr. Hale. They are fighting a number--they have a train-
and-equip mission, as we do, and then they are directly 
supporting the fight against at least five different violent 
extremist organizations that we see across the region.
    Senator Graham. If they left, would the--who would fight 
these extremist organizations?
    Mr. Hale. Well, it would be left to a coalition of the 
willing. One of the attributes of the French is that they are 
expanding their region to Europe to find other countries that 
are prepared to contribute forces and resources to this battle.
    Senator Graham. And the French rely upon unique American 
capability in terms of Intelligence, Surveillance, and 
Reconnaissance (ISR) and transport; is that right?
    Mr. Hale. That is correct, sir.
    Senator Graham. We are not on the ground going door to door 
with the French?
    Mr. Hale. That is right. We work bilaterally with--for the 
most part, bilaterally with these countries, who--the 
responsibility has to rest squarely on the leaders in the 
militaries of these weak countries. And, of course, our 
strategy is to strengthen them.
    Senator Graham. So, Mr. Green, from your point of view, the 
security presence that the French provide is helpful to the 
United States in terms of accomplishing your mission?
    Mr. Green. Very much so. While we try to remain adaptable 
and flexible in how we provide humanitarian assistance and 
development assistance, obviously we can do much more if the 
situation is secure and stable.
    Senator Graham. For lack of a better way of putting it, who 
are the biggest winners and losers if for some reason the 
French withdraw their ground components in this region?
    Mr. Green. A range of assorted bad guys from criminal gangs 
to potentially violent extremist groups.
    Senator Graham. Do you agree with that, Mr. Hale?
    Mr. Hale. That is right. It is a question of timing. The 
job is not done yet. And, in addition to building up the 
institutions of the Sahel states, we are increasingly looking 
to the coastal states in ECOWAS, who are increasingly 
threatened to step up, as well.

          GLOBAL FRAGILITY ACT AND ADDITIONAL RECOMMENDATIONS

    Senator Graham. Very briefly, Senator Coons and many on 
this subcommittee have been very involved in trying to create 
some capability to give you more tools, including the GFA. Give 
us some idea of what we are doing right, and what would you 
like to see us do more of?
    Mr. Green. I think food security is absolutely key to all 
of our work in the region, not simply the food assistance that 
we provide in humanitarian assistance. As important as that is 
to meet immediate needs, we all know that these countries, if 
they fail to become more food secure, it is going to be a cycle 
feeding on itself in terms of loss of economic opportunity, 
displacement, and again, fertile ground for radicalization.
    Senator Graham. Mr. Hale.
    Mr. Hale. Building on that, I would say that it is 
important that we look at legitimizing and expanding state 
presence in areas where they are not present now.
    Secondly, strong private sector strategy--that is just part 
of our overall Africa approach--needs to be an element here, as 
well, so that there is creation of jobs and a thriving economy.
    One of the features that I certainly welcome in the GFA--or 
really, two. One is the emphasis on integration and 
coordination across our government. And, second, is that this 
is going to be--the intention is a durable strategy that does 
not shift with different administrations or different leaders 
so that we are consistent and really investing well.
    Senator Graham. Senator Leahy.
    Senator Leahy. Thank you, Mr. Chairman. You asked many of 
the questions that I am concerned with.

                     FRAGILITY AND SECURITY FORCES

    Under Secretary Hale, the plan proposed by the USIP Task 
Force on Extremism in Fragile States found that abusive 
security forces are a major factor contributing to extremism 
among youth in Africa. Do you agree with that?
    Mr. Hale. A hundred percent.
    Senator Leahy. Thank you. Most of the security forces in 
the Sahel receive U.S. training and equipment, yet they often 
abuse their authority. I look at reports of security forces in 
Mali and Burkina Faso, for example, being implicated in dozens 
of extrajudicial killings and other human rights abuses. In 
both countries, ethnic militias implicated in torture and 
disappearances have also received support from their 
governments.
    So, I wonder what we can do to improve our oversight of 
foreign security forces. If we are going to provide resources 
and training, what more can we do to ensure that these forces 
are held accountable? If governments are not punishing their 
troops when they commit atrocities, should we withdraw our aid?
    Mr. Hale. Well, that may ultimately be the outcome, but I 
think we need to have a strategy to try to prevent us from 
reaching that consequence. Obviously, we are rigorously 
enforcing the Leahy Amendment and the vetting process, and we 
do find abuses, and we do agree that those abuses make the 
situation even worse by feeding and fueling the conflict.
    And we pointed--I have pointed that out to the leadership. 
I made it a theme in all of my discussions. Our ambassadors do, 
as well.
    So, I think, one, it starts with trying to convince leaders 
of the costs here to them. Not just to the relationship with 
us, but what it is costing to their effort to stabilize their 
country.
    Second is----
    Senator Leahy. Do leaders seem at all responsive to that?
    Mr. Hale. Some do. Some more so than others. And we have 
seen efforts to do a better job with investigations and 
punishment, and we do recognize that when it happens.
    But, ultimately, I agree with you. If we find the situation 
is simply not being reversed and is irretrievable, then 
considering cutting our aid has to be on the table.
    Senator Leahy. Thank you, I may want to follow up with you 
on that issue. I appreciate that you are applying the Leahy 
Amendment, which can be difficult but ultimately serves a 
purpose which I believe you, I, and Mr. Green agree on.

        U.S. ARREARS FOR UNITED NATIONS PEACEKEEPING ACTIVITIES

    Also, in a report submitted by the State Department about 
U.S. arrears for U.N. peacekeeping, which are approaching $1 
billion in fiscal year 2020, the Department notes that such 
arrears could impact U.S. influence and credibility at the U.N. 
and further strain U.N. peacekeeping capacity at a time when 
the U.N. is engaged in a number of critical missions. Of 
course, one of those missions is in Mali.
    The Trump administration voted in favor of the budget for 
that mission and for the U.S. share of all peacekeeping 
missions, but has not worked with Congress to ensure that it 
has the authority and funds to pay those bills. Instead, the 
administration has shown no interest in actually paying what we 
owe.
    Do you agree that it is in our interest to pay what we owe 
for UN missions like the one in Mali, which I understand is the 
deadliest in the world.
    Mr. Hale. I certainly believe we should meet our 
obligations and commitments to the U.N. in terms of both the 
budget and in any other regard. And, I certainly----
    I am concerned at your comment that you felt we have not 
worked with Congress on this, and I will go back to my 
Department and organization and work on that.
    I will say it is also beholden on the U.N. to undertake 
reforms and make sure that they are making the best use of the 
money that we provide them.
    Senator Leahy. Well, virtually all of the State and Foreign 
Operations Appropriations bills that come out have been 
bipartisan, which is why they have passed overwhelmingly in the 
Senate. And, we want the money to be spent the way Congress has 
directed.

               REFUGEES AND INTERNALLY DISPLACED PERSONS

    Now, Under Secretary Hale, desperate, hungry people in the 
Sahel are increasingly becoming refugees or IDPs seeking safety 
and trying to find ways to earn enough to survive. They number 
in the millions now. The response we increasingly see--
following this administration's example--is to enact legal 
barriers, build physical barriers, oppose resettlement, or 
treat the challenge as a law enforcement problem. If the 
situation there is this desperate today, how do we plan for 
what will inevitably be a great deal more desperate situation 
10 years from now?
    Mr. Hale. Well, that is why we need to succeed today in the 
strategies that we are outlining together. These are resource-
poor states, extremely fragile. Institutions are thread-bare.
    I think that, again, the integrated and coordinated 
approach that we have is the best bet here. We have to hold 
leaders accountable. They are the ones who have to make the 
tough decisions. They are the ones----
    In the case of Mali, President Keita, I was very direct 
with the president to say that he had to make sure that his 
government was performing by meeting the commitments they had 
made to the various armed groups to decentralize and to reform 
governance and distribute economic goods more effectively in 
order to meet the requirements of the U.N. and MINUSMA, and of 
the agreement.
    So, I do think this it is important, and we have to 
continually remind ourselves and the leaders that 
responsibility first is theirs. But, the consequences are felt 
by us, so we have to make sure that we get this right.
    I am very concerned about the spillover. We have seen--if 
you look at a map, if you transpose the number of security 
incidents in Burkina Faso 18 months ago with what you see 
today, it is dramatic and it is alarming, and that will happen 
then further south in another 18 months. So, we have to get on 
top of this.
    So, we really appreciate the tools the legislation is 
giving us to have a long-term durable strategy.
    Senator Leahy. Mr. Chairman, I am going to submit some 
questions for the record because my time is up. And I am being 
careful. You touched on some of the problems, many of the 
problems, Under Secretary Hale, that relate to issues we have 
discussed in our classified briefings. I share your concern and 
I know Mr. Green does, too.
    Mr. Hale. Yes, sir.
    Senator Graham. Thank you, sir.
    Senator Lankford.
    Senator Lankford. Sure, and thank you. Gentlemen, thank 
you. Thank your teams for a lot of the work that they do for 
our Nation and for a lot of folks that have a great need there.

                      U.S. PRIORITIES IN THE SAHEL

    If you can, briefly give me like your top three or four 
items that you say are priorities in the work that you are 
doing there. I know you have outlined a few of those in your 
opening statements, as well, but give me briefly the reason 
that we are there, what we are trying to accomplish, how we 
evaluate the metrics of what we are accomplishing there.
    Mr. Green. Thank you, Senator.
    So, I would distinguish between the two sort of broad 
categories of assistance that we provide.
    The humanitarian assistance, often emergency food relief, 
is just that. It is to ease suffering. It is immediate. It is 
to try to make the fortunes of people in these areas better. 
Also, to stem the flow of internally displaced and refugees, 
which is, again, historic levels.
    Secondly, on the development side, I would say food 
security, so actually bolstering the resilience of some of 
these communities so that people do not feel driven to go for 
economic opportunity and food opportunity.
    Those would be the two broad areas that I would focus on, 
food security perhaps being, on the development side, most 
important.
    And, then, finally, it is--as Under Secretary Hale pointed 
to, it is bolstering some of the governing institutions that 
hopefully create some citizen responsiveness and, again, stem 
the flow of displacement.
    Senator Lankford. Mr. Hale.
    Mr. Hale. Thank you, Senator. Building on that, I would 
just--I would emphasize the importance of African solutions for 
African problems and that we always need to keep that in focus. 
Our role can be to strengthen coordination amongst all of us 
with that as the objective.
    Reestablishing state legitimacy is absolutely key. That is 
one of the reasons we have the problem that we have today, was 
the absence of the credible state presence.
    And third, going back to the diplomacy of this, there was--
5 years ago, the Algiers Accord was agreed upon, which was to 
establish peace in Mali. The absence of that and the lack of 
fulfillment of those commitments by the Malian government, 
among others, has allowed this problem to metastasize and 
spread and radicalize even more groups around the region.
    Senator Lankford. So, how do you measure progress with 
those?
    Mr. Hale. Well, I think with reestablishing state 
legitimacy, you take a map and you see where is the state going 
back? Where have they been able to reestablish good governance, 
state institutions, education, the provision of economic goods, 
a working judiciary, and one that then fights the private 
sector.
    Senator Graham. What percentage of Mali would fall under 
that definition?
    Mr. Hale. Gosh, I hesitate, but I would say close to half 
of Mali is probably outside the hands of the government in 
terms of a hundred percent.
    They did--after my visit there, they did send a company--
two companies of soldiers to Ceuta, which is one of the areas 
in contention with radical groups. So, that was a good outcome, 
but it is just one small step.

                    ENGAGEMENT OF CHINA IN THE SAHEL

    Senator Lankford. So, what is the engagement of China in 
the region?
    Mr. Hale. China has got a long-term, comprehensive strategy 
to use its tools, primarily its investment and trade tools, and 
physical presence to extend its influence and domination. One 
of the challenges we have is that many Africans, 
understandably, view the benefits of this relationship without 
seeing the negative consequences. And, so, I think it is 
important for us to expose that reality.
    Senator Lankford. So, what is the reality of what they are 
doing and how long have they been there?
    Mr. Hale. Well, they have been there for a number of years. 
I think it is accelerating now. And, essentially what they are 
doing is making these states dependent upon them for--by debt, 
through investments, through infrastructure projects, projects 
that often are out of scale with the needs of the country and 
where----
    Senator Lankford. Is China a predatory lender?
    Mr. Hale. Yes, very much so.
    Senator Lankford. And they are putting in large-scale 
facilities and requiring what for collateral from these 
countries?
    Mr. Hale. Mark, can you----
    Mr. Green. Well, first off, that is one of the challenges. 
The deals are entirely opaque. We do not know all the deals of 
the financing. We suspect it is natural resources they have a 
line on.
    Of all the countries in the Sahel region, we measure all 
but one or two as being at moderate risk of debt distress. We 
are seeing that debt rise, and what that is essentially doing 
is, as the Under Secretary pointed out, it is creating a level 
of dependency that will come due, and China will be able to 
harvest natural resources, which is oftentimes, we think, their 
objective.
    Senator Lankford. Are they using local workers or are the 
Chinese bringing in their own workers to be able to do--
harvesting the natural resources?
    Mr. Green. Well, I hesitate. I don't think there is a one-
size-fits-all, but in general, traditionally, it has often been 
not local workers and not local opportunity. Instead, it has 
been a harvesting of resources for Beijing.
    Senator Lankford. So, China is moving in and just 
basically, over a few years, taking over big chunks of these 
countries, not necessarily giving an economic benefit to the 
country long term; just putting a foothold there and then 
basically taking their resources?
    Mr. Green. I once--I had a businessman once say to me that 
Chinese financing is essentially loan to own.
    Senator Lankford. Right.
    Mr. Green. And that appears to be their objective in most 
places.
    Senator Lankford. I know I am running out of time. Let me 
ask you another quick question.

THE IMPACT OF THE U.S. MILITARY PRESENCE ON OTHER PROGRAMS IN THE SAHEL

    We have a military presence in this region. What would 
happen if our military presence and our base in the region went 
away to our humanitarian efforts? What are--we have talked a 
little bit about their military cooperation with the French. 
What would happen to our humanitarian efforts in the region if 
that military base went away?
    Mr. Green. It would certainly be more difficult. 
Humanitarian--the work we do, oftentimes through partners, 
requires some level of security and stability to be able to 
reach those----
    Senator Lankford. And the counterterrorism effort, what 
would happen to that?
    Mr. Hale. It would depend on how extensive the cuts were. 
But, I do want to underscore that a large share of the security 
spending goes to the State Department. These are State 
Department resources and often Pentagon personnel, uniformed 
personnel, involved in the programming. But, we would find 
ways, if needed, depending on different scenarios, to try to 
sustain this important work that the State Department is doing.
    Senator Lankford. Okay. Thank you.
    Senator Graham. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Administrator Green and Under Secretary Hale, thank you 
both for what you and all of the folks who work with you are 
doing, not only in this region, but around the world.

            WOMEN'S EMPOWERMENT AND POLITICAL PARTICIPATION

    I want to go back. Both of you mentioned empowering women 
and women's full participation in society as being critical 
issues in this region. And, so, I want to talk about that a 
little bit because I think it is something that too often gets 
overlooked as we think about the impact, not just economically, 
but on the ability to maintain stability in societies.
    According to UNICEF, greater equality between boys' and 
girls' education levels can decrease the likelihood of violent 
conflict by as much as 37 percent. And, the World Banks says 
that if every girl worldwide received 12 years of free, quality 
education, that lifetime earnings for women could increase by 
$15 to $30 trillion globally. So, clearly, this is a place 
where our efforts to empower women and girls can have a huge 
impact on what is happening in those societies.
    So, can both of you talk about what we are doing to address 
the role of women and how we ensure that girls can get more 
education? Administrator Green, you want to begin?
    Mr. Green. Thank you, Senator. In many ways, you have 
answered your own question in terms of the importance. I 
absolutely agree.
    First, in the area of involving women in peace and 
reconciliation, all the studies show it produces more 
sustainable outcomes.
    But, secondly, it also provides early warning signals for 
us. We know that women are often closer observers of 
particularly young men and the stresses that they feel and 
susceptibility to exploitation. And, so, investing in women in 
that sense also has benefits.
    In terms of individual countries, in places like Niger, we 
have programs aimed at reducing early and forced marriages.
    In places like Burkina Faso, we work on economic and social 
empowerment of women, especially in the area of food security. 
We find it produces better long-term results.
    In places like Mali, we continue to invest in some of the 
community savings and loans, which I have to say has been a 
revelation to me since I have come to USAID. Some of the best 
projects anywhere in the world are those projects that empower 
women by giving them decisionmaking over its modest community 
assets. But, nonetheless, it is a key measure of empowerment, 
and also produces better investments, to be honest.
    So, those are the types of projects that we are doing 
throughout the Sahel.

    [The following information was provided by USAID:]
Statistics on violent extremism decreasing as women become more 
        involved in society through education, economic reforms, etc.

    USAID recognizes the critical role of development in addressing 
social, economic, governance and other factors that can drive violent 
extremism or radicalized individuals and communities. Countering 
Violent Extremism (CVE) is central to achieving USAID's mission to end 
extreme poverty and promote resilient, democratic societies while 
advancing our shared security and prosperity. For effective CVE 
strategies and approaches, it is necessary to understand the gender 
related drivers of violent extremism globally. In 2017, the Global 
Extremism Monitor registered 100 distinct suicide attacks conducted by 
181 female militants, 11 percent of all incidents that year.\1\ 
Specifically in the Sahel, according to the Office of Transition 
Initiatives' (OTI) 2019 gender dynamics study, economic and social 
discrmination has led women to join Boko Haram. A 2016 study 
commissioned by USAID's Africa Bureau concluded that economic factors 
were the single greatest driver of women's participation in VE groups 
in Mali and Niger. This year, the Agency will complete a new research 
initiative on women's critical roles in violence and extremism along 
the border of Mali, Niger, and Burkina Faso.
---------------------------------------------------------------------------
    \1\ ``Women and Terrorism Report'', Council on Foriegn Relations.
---------------------------------------------------------------------------
    USAID's Women, Peace, and Security (WPS) programming is tackling 
the root causes of violent extremism. Activities are advancing the 
objectives outlined in the joint Department of State and USAID, 
``Strategy to Support Women and Girls at Risk from Violent Extremism 
and Conflict'' and the U.S. Strategy on Women, Peace, and Security. 
USAID's support for women at the regional, national and local levels in 
the Sahel is expanding opportunities for women and girls in all 
sectors, to enable more productive and peaceful societies.

  --Increasing Girls Education: We know that education for girls and 
        young women is frequently neglected in post-conflict societies. 
        Yet the evidence establishes that educating girls is among the 
        most productive social investment which supports a more stable 
        society, economic recovery, and enduring peace. In peace 
        mediation and negotiation we recommend that girls' education 
        should be a high priority.
  --Economic Opportunity: USAID is working with the Global Shea 
        Alliance to generate increased incomes for women across West 
        Africa. For example, in February 2020, the US Embassy 
        inaugurated a shea butter processing facility and warehouse in 
        the Northern Region of Ghana. Shea is a primary source of 
        livelihood for women and is one of the few agricultural crops 
        where women control their revenue.
  --Increasing Women's Participation: We are expanding our programming 
        to increase women's participation in preventing and responding 
        to radicalization in their communities. For example in Niger, 
        USAID activities are focused on engaging women in community 
        dialogues,decisionmaking and partnering with local governments 
        to provide services that are responsive to the needs of women 
        and girls in vulnerable communities.
  --Increasing Women's Participation in the G5: USAID's Partnership for 
        Peace (P4P) initiative is supporting countries of the G5 Sahel 
        to develop partnerships with civil society networks 
        representing women, youth and journalists to take an active 
        role in countering violent extremism. USAID is also supporting 
        the G5 Sahel Women's Regional platform to elevate women's roles 
        in CVE and overall in development efforts across the Sahel 
        region.

    Based on the data, current USG strategies, and emerging research, 
it is the Agency's assessment that increasing women's participation in 
CVE interventions can help to decrease future conflict and violence.

    Senator Shaheen. Under Secretary Hale.
    Mr. Hale. I join in agreeing fully in everything that has 
been said and about the central role that we have to play in 
promoting women as part of the solution to instability, and I 
have sensed that throughout my career in different parts of the 
world.
    When it comes to this region, you know, some of the tools 
we have used is the Security Council resolution for the mandate 
in MINUSMA. We have insisted, in the case of Mali, that there 
be elements of that that require the signatory parties to 
include women as leaders and in their decisionmaking teams.
    In Burkina Faso, we have, again, supported women to be 
effective leaders--I met one of them, actually--and active 
participants; that community-based solutions to conflict need 
to obviously include women fully.
    And in Niger, one of the interesting things we have done 
there, we have a very strong partnership with their army in 
terms of training and equipment. We have made sure that they 
are prioritizing the inclusion of women into their defense 
services and we are seeing results. The first Nigerian female 
C-130 pilot just graduated from U.S. training, so hopefully she 
will be a role model for others.
    We also have a female officer who has graduated from the 
U.S. Command and General Staff College, and there is a woman 
from Niger who has been nominated for West Point. So, they are 
making impressive strides, as well.
    But, we look forward, again, to using the act as an 
effective tool to make sure this is durable and not transient.
    Senator Shaheen. Now, I appreciate that. I had a good 
conversation with Former Africom Commander, General Waldhauser, 
who talked about the impact of the Women, Peace, and Security 
Act on their ability to allow women in those countries in 
Africa to see what we are doing and be able to model that for 
other women and how important that is.
    Can you talk more--Mr. Green talked about education and 
what we are doing to try and prioritize keeping girls in 
school. In terms of the State Department, and as we are looking 
at diplomatic efforts, are there additional ways that we should 
be looking at how do we encourage countries to keep girls in 
school?
    Mr. Hale. Yes, we can. I firmly believe in the education 
piece of our assistance programming as it relates to across-
the-board stabilization, but certainly gender. And, I don't 
have the specifics on what we are doing country by country. We 
can get that for your staff, for questions for the record 
(QFR).
    But, I will say, we are also using our Office of Global 
Women's Issues that reports to the Secretary of State, and they 
are prioritizing some of our plans here and they, too, can get 
back to you with the details, Senator.

 NEXUS BETWEEN EMPOWERMENT OF WOMEN AND RISE OF EXTREMISM/TERRORISM IN 
                               THE SAHEL

    Senator Shaheen. And do we see a relationship between 
women's political, economic, and social status and the rise of 
radical terrorist groups in the region? So, can we look at 
countries and say, okay, women have--are more empowered, they 
are more integrated into society in these countries, and we are 
seeing less of a rise in terrorist activity, versus in 
countries where there is--women don't have as much role?
    Mr. Hale. Mark, do you want to----
    Mr. Green. I am not sure I have seen that quantified, but 
logically, it makes sense. I think that where women are 
empowered--and empowerment being economic opportunity and 
educational opportunity--the social fabric of the community is 
stronger----
    Senator Shaheen. Right.
    Mr. Green [continuing]. Which is one of the ways that we 
prevent exploitation that leads to extremism. So, while I have 
not seen numbers on it, my guess is that that is right.
    Senator Shaheen. Yes. I think actually the number that 
women contribute back to their households and communities 
versus men has actually been quantified. I think the data is 
there to show that women give back in much greater amounts in 
terms of dollar contributions to their families, to their 
societies, to their communities than men do in most of those 
countries.
    Thank you, Mr. Chairman.
    Senator Graham. I think that is probably true for the whole 
world.
    Senator Shaheen. I agree with that.
    [Laughter.]
    Senator Graham. Senator Moran.
    [Audio malfunction in hearing room.]
    Senator Graham. Can we go to Senator Coons?
    Senator Coons.
    Senator Coons. Thank you, Mr. Chairman. I thought you were 
going to go to my dear colleague from the State of Kansas. 
Fabulous. Thank you.
    Thank you, Chairman Graham, Ranking Member Leahy for your 
service and for this hearing. And, to our witnesses, thank you 
for your decades of service and deep knowledge about these 
areas.

                       IMPLEMENTATION OF THE GFA

    The Global Fragility Act passed with broad bipartisan 
support in December of last year and is now law. I am urging 
senior officials within the administration to find strategic 
ways to use this new tool to reinforce the work that you are 
doing. It authorizes $230 million a year for the next 5 years 
to address the root causes of fragility, instability, and 
terrorism.
    Could you each just commit that the State Department and 
USAID will use this as a new tool with additional funds that 
will help the administration to execute a targeted long-term 
and interagency strategy to help us get ahead of violent 
extremism in this isle?
    Mr. Green. Yes, certainly. And, we are also, in some ways, 
reorganizing ourselves around many of the concepts. We have the 
Bureau for Conflict Prevention Stabilization, as well as the 
new Resilience and Food Security, and that is very much with 
the concepts in mind.
    Senator Coons. Good. Thank you. Mr. Assistant Secretary.
    Mr. Hale. Absolutely, yes, Senator, I can commit to that, 
and I also can commit to consulting closely with this 
subcommittee and with you and others who are interested in 
this.
    At this stage, obviously we need to take some time to get 
our homework done, and the White House is coordinating the 
interagency process to do just that.
    Senator Coons. There is an initial strategy due by 
September 15, and then a final by December 19. We are going to 
consider a 10-year plan. Do you think that is an overly 
aggressive timeline, an achievable timeline, or frankly, given 
that it is law, doesn't matter what you think of it?
    Mr. Hale. I think we will achieve that timeline.
    Senator Coons. Is that an achievable timeline, 
Administrator?
    Mr. Green. Yes, very much so, and State and AID are 
actively engaged with the rest of the interagency.
    I think the most important aspect in many ways is making 
sure that we target countries that are on the edge. So, not 
countries that are in conflict, quite frankly. We have 
resources and strategies to address those. But, more 
importantly, those that we might be able to make a difference 
with in not falling into open conflict. So, that is what we are 
working closely to identify.
    Senator Coons. That sort of continuum from failed state to 
fragile state to state that is seemingly beginning to slide is 
exactly what I hope your----
    Mr. Green. Yes.
    Senator Coons [continuing]. Experienced and seasoned teams 
will look at and figure out where we can have the biggest 
impact.
    One of the things I was most excited about this idea as the 
Chairman began moving it forward was the idea that we could use 
it to crowd in and then align with the funding and the 
activities of our numerous partners, from the World Bank to the 
United Nations to long-terms partners, Germany, France, the 
Scandinavian countries.
    I have met with representatives of a number of these 
organizations recently. They see the global fragility strategy 
and the multi-donor fund mechanism as a timely opportunity to 
partner with us to combat extremism and instability, 
particularly in this isle, and tell me that if we contribute to 
the multi-donor fund, they are likely to make contributions of 
their own.
    How do you envision the use of the multi-donor mechanism 
that is in the act? And, if Congress were to appropriate seed 
funding as part of our appropriations process this year, do you 
believe that would help you leverage contributions from our 
allies and partners to tackle the drivers of extremism? And, do 
you think that might help us align in terms of burden sharing 
and pulling in the same direction with partners around a common 
strategy?
    Mr. Green. I would say the most important thing is making 
sure that we have consensus on precisely what it is that we are 
trying to achieve and, you know, those outlines, I think, is 
the key to it. If we can do that, then sure. Then I think it is 
helpful, but I think making sure that we all identify clear 
objectives and not simply have yet another fund that we all put 
money into. I think that is the key.
    Mr. Hale. I would associate myself with that. But, in 
principle, I think the idea of burden sharing and the concept 
that we can multiply the funding is a very welcome one.
    Senator Coons. I mean, my impression, I have been to four 
out of five of the countries identified here as the Sahel 5 in 
the USAID brief. My impression is that we are one of the 
largest providers, but we are far from the sole provider of 
training, of humanitarian assistance, of democracy and 
governance support. And, so, beginning to move towards an 
aligned common strategy once we have identified what it is we 
are trying to achieve over a longer period of time, I think, is 
the best way to do burden sharing.
    Let me ask a last question, if I might. Under Secretary, 
you are a career Foreign Service Officer (FSO). Something that 
is not in the act but that I have been thinking about is 
whether there is ways we can work to change the institutional 
mindset at State to create incentives for FSOs to dig deeper 
into the problem of fragility.
    Would you be open to a discussion about adding to A-100 a 
course on the root causes of fragility and terrorism and to 
including work on fragile states as part of the precepts for 
promotion for an FSO?
    Mr. Hale. Yes, I would. I think this is one of the most 
significant areas for the State Department today and in the 
future. And, Secretary of State Pompeo--you know, I have been 
in the service 35 years. I have never seen someone so committed 
to training and developing our human talent, so I think we 
would absolutely like to have that conversation.
    Senator Coons. Well, I see I am about out of time. Let me 
just say that I am grateful for both of you, your long service, 
and your deep experience in this field.
    And, there are ways that the existing initiatives you are 
talking about, whether it is the Sahel Development Partnership, 
RISE, Voices for Peace, can support and align once we get to a 
clear definition of strategy.
    I think this law gives us an opportunity to improve the 
transparency, the effectiveness, and the accountability of U.S. 
foreign assistance that allows us to keep making the case to 
our constituents about supporting it at a time where there is 
an active review underway in DOD about whether to sustain our 
engagement in the Sahel. I think the answer ought to be a 
resounding yes.
    But, I also think we ought to align around a common 
strategy--that is diplomacy, development, and defense, in that 
order--and a long-term, clear strategy with weigh points, 
metrics, and outcomes that can satisfy as broad a range as 
Senator Lankford and me, and that our chairman will help fight 
for and advocate for.
    Thank you, Chairman Graham, for your tireless partnership 
in getting this turned into law, and thank you for your 
testimony here today.
    Senator Graham. Thank you, Senator Coons. You are the 
Africa guy, as far as I am concerned. I never cease to be 
amazed by how much you know and how much you care.
    Senator Moran.
    Senator Moran. Mr. Chairman, thank you. I appreciate you 
and your chairmanship of this subcommittee, giving us the 
opportunity to explore things beyond just how many dollars and 
cents we should be appropriating. Oversight, I think, is an 
important role, and I appreciate the opportunity you have 
provided me by having these witnesses in front of us.

                             FOOD SECURITY

    Ambassador, it is good to see you. I want to focus on food 
security in my questioning. Can you give us the circumstances, 
the state of the--in play as far as food security in the Sahel? 
How dire is it?
    Mr. Green. In parts of the Sahel, it is dire and getting 
worse by the day. One of the great challenges that we face in 
terms of--obviously, there is food security and then food 
assistance and nutritional assistance--is the displacement of 
communities.
    I began in my testimony by pointing out that we are now 
seeing 4,000 people displaced per day in just Burkina Faso, 
every day since the beginning of this year. That is creating 
extraordinary challenges, humanitarian terms, but also in how 
you reinforce food security and food production, which we know 
is the basis of the economy in all of these areas.
    So, we not only have the immediate emergency relief 
challenge. We have the long-term challenge that, if we fail to 
address, we are going to be stuck in that emergency relief 
challenge for as far out in the future as I can see, and that 
is a bad answer. That is not good.
    Senator Moran. So, what is going on currently with the 
emergency relief in this region?
    Mr. Green. So, we are providing food assistance in the 
emergency relief terms. But, what I think is the better news 
are the future investments we are able to make in different 
parts. We are seeing good food security work underway in places 
like Niger that we need to keep working on.
    For us, food security investments are the key to economic 
stabilization in each of these countries. If we don't get that 
right, the rest of it, quite frankly, is not going to hold.
    Senator Moran. Your response may tell me at least the sense 
I might have how you answer this next question, but I think it 
is an important question. At least, I would like to understand 
when Bill Emerson Humanitarian Trust dollars would be used. My 
understanding, they have not been used since 2014, and it takes 
a request from you to U.S. Department of Agriculture to 
accomplish that. What is your theory or philosophy as to when 
to call on that Trust?
    Mr. Green. To be honest, I will have to get back to you on 
that. We will make sure we get a written answer to you.

    [The following information was provided by USAID:]
Requested information on USDA's Bill Emerson Humanitarian Trust and why 
        USAID has not utilized it in the Sahel.
    The Bill Emerson Humanitarian Trust (BEHT) is a special authority 
reauthorized in the Agriculture Improvement Act of 2018, also known as 
the Farm Bill, that allows USAID's Office of Food for Peace (FFP) to 
respond to unanticipated food crises abroad when Title II resources 
have been exhausted. The BEHT was originally authorized by the 
Agriculture Trade Act in 1980 as the Food Security Wheat Reserve, a 
reserve designed to hold up to four million metric tons of wheat, later 
broadened to include a number of other commodities. In 1998, the 
reserve was renamed the Bill Emerson Humanitarian Trust.
    In 2008, as global food prices spiked, the United States Department 
of Agriculture (USDA) sold the remaining stocks (about 915,000 MT), 
converting the trust into a cash reserve for the purchase of U.S. 
commodities. The 2008 Farm Bill authorized the Secretary of Agriculture 
to invest the funds in low-risk, short-term securities or instruments 
to maximize the trust's value. The BEHT is under the authority of the 
Secretary of Agriculture, with the USAID Administrator overseeing the 
release and use of the funds. The funds in the BEHT are available to be 
used for the purchase of commodities, however, the associated costs 
required to transport, store, and distribute the food must come 
separately from the Commodity Credit Corporation. When unforeseen food 
needs arise, the Secretary of Agriculture may authorize the release of 
funds at the request of the USAID Administrator for the purchase of U.S 
commodities in order to meet humanitarian needs. Given the lead time 
required for U.S. commodities and the necessary approvals within the 
U.S. Government, BEHT commodities can take anywhere from 6 to 12 months 
to arrive at their intended destination.
    The trust currently holds more than $260 million. In 2008-2010, FFP 
withdrew $228 million from the BEHT to purchase 344,820 metric tons 
(MT) of commodities and bags for Afghanistan, Ethiopia, Kenya, 
Zimbabwe, and North Korea. The last time FFP used the BEHT was in 2014, 
when FFP drew down $50 million to purchase 189,970 MTs of commodities 
and bags for South Sudan.
    FFP has not used the BEHT in the Sahel because it is only 
authorized for use in unforeseen and extraordinary humanitarian needs 
beyond the scope of FFP's annual operating budget and once all 
remaining Title II resources have been expended. It is difficult to 
justify additional resources when FFP has committed significant 
resources to the Sahel emergency and there are remaining Title II funds 
for fiscal year 2020.
    In fiscal year 2019, FFP provided over $163 million in emergency 
food assistance in the Sahel with both Title II and International 
Disaster Assistance (IDA) funds. We expect fiscal year 2020 levels to 
be commensurate with increasing levels of needs in the Sahel. These FFP 
resources are part of USAID's Resilience in the Sahel Enhanced (RISE) 
II program in Niger and Burkina Faso, which covers four sub-national 
regions and includes over 30 implementing partners, including the World 
Food Program, government stakeholders, and civil society partners, with 
an investment of $730 million over 5 years. RISE II takes into account 
the challenging context, growing violent extremism, and instability, 
and contains internal and external coordination mechanisms that 
facilitate discussion between development and humanitarian actors to 
coordinate responses to evolving challenges, such as the increase of 
internally displaced people in Burkina Faso. This innovative model, 
designed to complement USAID's humanitarian assistance and improve 
effectiveness and efficiency of all USAID efforts, is also informing 
USAID's resilience efforts beyond the Sahel.

    Senator Moran. Thank you, Ambassador.

       MEASURING RESULTS OF COUNTERING VIOLENT EXTREMISM PROGRAMS

    Mr. Hale, let me ask this question. The State Department's 
IG last year could not affirm that counter-violence extremist 
grants, CVE grants, were achieving their desired result. The 
explanation was because the Bureau and Country statistics, our 
strategies don't ally with the Department's CVE goals and 
objectives.
    Do you know about that Inspector General's report? And is 
there anything that has happened that would allow us to better 
gauge whether or not success is occurring?
    Mr. Hale. I don't have personal familiarity with that, but 
I will go back and get an answer for you. I also want to make 
sure that, in fact, we are lined up. Obviously we need to be 
able to measure our impact, so I agree with the thrust of the 
question.
    Senator Moran. I think there is an Inspector General's 
report that suggests that is not----
    Mr. Hale. Exactly.
    Senator Moran [continuing]. Possible, at least at the point 
in time that we are.
    Mr. Hale. Got it.

             TARGETING OF TRADITIONAL AND RELIGIOUS LEADERS

    Senator Moran. Let me then go back to Ambassador Green. In 
regards to traditional authorities, religious leaders, they are 
being under--they are being targeted to undermine social 
stability in the region. What role can USAID play in trying to 
stop the attacks? And is there a role for interfaith dialog to 
occur?
    Mr. Green. Great question. I will answer the last part of 
that. That is an easy one. Yes, absolutely. I think promotion 
of interfaith dialog is absolutely essential in many parts of 
the Sahel.
    One of the trips that I took last year was to the Central 
Belt in Nigeria. I couldn't get up, quite frankly, to 
northeastern Nigeria to see the active conflict areas. But, 
helping to distinguish between what are decades-old community 
disputes that can be reconciled through dialog versus the 
pernicious influence of outside extremist groups is 
extraordinarily important to our work. We have to make sure we 
have the right tool for the right job.
    Oftentimes, what we see happening is, through the use of 
social media messaging, by, quite frankly, self-promoting and 
corrupt political leaders, they seek to turn into 
interreligious disputes those which are not interreligious 
disputes.
    And, so, we make a lot of investments in essentially 
community liaisons who can help us identify causes for 
disputes, help us make sure that we are promoting dialog, and 
tackling disputes before they become truly interreligious, the 
kinds of disputes that we are seeing exploited in some of the 
worst areas of conflict in the Sahel region.
    So, partnering with Interfaith Voices, making sure that we 
understand the nature of conflicts when they do arise, and 
making sure that we push back against some of the messaging, 
which unfairly stereotypes and abuses stereotypes, I think is a 
very important part of our work in the Sahel Region.
    Senator Moran. Mr. Administrator, thank you very much for 
your personal interest and commitment in the wellbeing of other 
parts in the world, which ultimately causes the wellbeing of 
the citizens of the United States to be enhanced. Thank you.
    Senator Graham. Thank you, Senator Moran.
    Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman, and thank both 
of you for your service and for being here today.

                                CAMEROON

    I have a couple questions, one relating to a country that 
borders on the Sahel and one that is an issue that is outside 
that: Cameroon.
    Secretary Hale, last month, the Cameroonian government 
forces, including members of the Rapid Intervention Battalion, 
which, as you know, is an elite military corps that has 
received U.S. counterterrorism support, killed at least 21 
civilians in a village in the northwest region, including 13 
children and a pregnant woman.
    The U.N. Human Rights Office has called for an independent, 
impartial, and thorough investigation into the massacre. The 
government of Cameroon has blocked the U.N.'s investigators, 
and there are obviously concerns about the impartiality of any 
government investigation.
    What is the Department doing? What can Congress do to make 
sure that we thoroughly investigate this massacre and hold 
people accountable?
    Mr. Hale. Thanks for the question. You are absolutely 
right, Senator. Violence is increasing. It continues to be on 
the rise. We certainly condemned strongly this incident that 
you described. We coordinated that with the U.K. and the 
French, so that was a powerful signal to the president.
    I will see what we can do in terms of investigation and 
accountability when we get the results of that. We would like 
to see the African Union play a more prominent role in 
encouraging the Cameroonian government to do the right thing.
    The one initiative that has the best probably chance of 
success here is one initiated by the Swiss, who do have special 
influence over the president given the historic relationship. 
That may be the most promising effort to get a dialog going, 
which is the ultimate objective here.
    Senator Van Hollen. Got it.
    So, in this subcommittee, I worked with some of my 
colleagues last year, with the chairman and others, and we 
included language in the fiscal year 2020 Foreign Operations 
Bill that requires a report from the State Department; that you 
investigate the Cameroonian security forces personnel who are 
credibly alleged to have committed, ordered, or covered up 
gross violations of human rights. That was before this latest 
massacre.
    The Department is required to report to Congress on these 
investigations within 90 days of enactment. We are on day 
number 81. Can you tell me what the status of the investigation 
is, and will we have that report on March 19?
    Mr. Hale. I will do my level best. I don't have an answer 
for you today.
    Senator Van Hollen. I appreciate it. Yes, so, as I said, 
we--you know, this was passed because of a concern about 
violence. We have now seen another massacre, so----
    Mr. Hale. Yes.
    Senator Van Hollen [continuing]. I hope that we will get 
that quickly.
    Administrator Green, this is a budget question. So--and I 
know you don't have overall responsibility at the end of the 
day. But, I do think, as the Chairman has pointed out when the 
administration has come before the subcommittee, this huge gap 
between resources requested and the needs.
    Cameroon is one of the most underfunded programs in the 
world in terms of our humanitarian programs. The Trump 
administration's fiscal year 2021 budget includes huge cuts to 
assistance in that country. The State Department Global Health 
Program in Cameroon was cut by 36 percent over fiscal year 2019 
levels, and the USAID Global Health Programs in the country are 
cut by nine percent; economic support funds cut by 25 percent.
    Given the humanitarian situation in the country, especially 
in the Anglophone regions, with one-third of the population in 
need of humanitarian assistance, how do you justify a budget 
like that?
    Mr. Green. Senator, what I can tell you is, seeing some of 
the same things that you are seeing with respect to Cameroon, 
we are actually in the--I point to that map. We are actually 
going to be opening up a mission in Cameroon in the coming year 
so that we are more directly on the ground and more involved in 
being part of the answer.
    I also look at the metrics that we have developed for--or 
we have put together for Cameroon. On top of what you have just 
laid out, Cameroon is one of the countries in the region that 
is in highest risk of debt distress, and so, that will only 
reinforce many of those problems that you have spoken of.
    So, our pledge to you is to increase our engagement with 
respect to Cameroon, both on the development side and, sadly, 
on the humanitarian side because I think those needs are 
rising.
    Senator Van Hollen. No, I appreciate that, and I am not 
going into great details. There is also--we are facing a 
coronavirus crisis here and around the world. If you look at 
USAID Global Health Security Funds, they were proposed for cuts 
last time around. This subcommittee, with the Chairman and the 
Ranking Member and the rest of us, restored those funding, 
but--those funds. But again, this time, even while we were 
looking at an Ebola outbreak in the DRC, we saw dramatic cuts.

            HUMANITARIAN SITUATION IN THE WEST BANK AND GAZA

    I would just like to end by asking about another economic 
assistance program. I am not going to go into all my concerns 
with the so-called deal of the century, the so-called peace 
deal announced by the White House between the Israelis and the 
Palestinians. In my view, it takes us a major step backwards. 
It is a one-sided deal. For those of us who support a viable 
two-state solution, it will make things harder, not easier.
    But, this Congress did try to deal with the humanitarian 
situation in the West Bank and Gaza. Despite the fact that this 
administration zeroed out, zeroed out, funding for all those 
humanitarian programs, we provided $75 million in economic 
support funds for the West Bank and Gaza.
    So, my question to you, Mr. Administrator, is very simple. 
When do you plan to spend those funds as the law requires you 
to do? And when will we see the notification here on The Hill 
about the plans to spend those funds?
    Mr. Green. Senator, I will say two things. First off, and 
perhaps it is implied by your question, we have no plans to 
close our presence in West Bank-Gaza.
    In terms of spending the resources, we will come to your 
office and report to you and get you a clear answer. I don't 
have an answer for you at this time.
    Senator Van Hollen. Right. Because these are funds that 
were in addition to the funds used to just maintain existing 
operations. These are funds that were designed to, for example, 
go to the hospital in East Jerusalem and deal with other 
immediate humanitarian crises. And, in my view, it has been 
reckless and irresponsible for the administration to have 
allowed these programs to lapse and these funding streams to 
lapse. Congress agreed on a bipartisan basis that we should 
restore them. And, so, I look forward to talking to you about 
how those funds will flow.
    Thank you, Mr. Chairman.
    Senator Graham. Thank you both. This has been very helpful 
to the subcommittee. I think you owe some answers to questions, 
and that is why we have these oversight hearings. I did not 
know about the Emerson Fund. I am going to look into this and 
why we have not tapped it.
    So, this is a map of Burkina Faso. From 30 January to 15 
May 2019, the red areas are the places that basically you can't 
travel to.
    I think I understand what you are both telling me better 
now.
    This is the map of 15 May to 30 November 2019. Everything 
but just around the capitol is pretty much a no-go zone, so I 
understand exactly what you are saying. This is going to creep 
down to Cote d'Ivoire and other countries, and, so, to the 
extent we can help, we want to help.
    The reason I wanted to have this hearing is you pay now or 
you pay later in these regions, and we have some programs. 
Let's use them.
    To our friends at DOD, you have been encouraged by many 
Members, Republican and Democrat alike, not to pull the plug on 
the 1,000 troops that provide essential capability to the 
French to hold the region together. I hope they are listening. 
I believe they are. It would be penny wise and a pound foolish.
    Anything else you would like to add before we close?
    Yes, sir. Senator Moran.

            CORONAVIRUS AND THE GLOBAL HEALTH SECURITY FUND

    Senator Moran. Well, Senator Van Hollen mentioned something 
about health, and it reminded me that our supplemental related 
to coronavirus included something that a number of us lobbied 
for to be included, and that is the CDC Global Health Security 
Fund. We were successful in $100 million a year for the next 3 
years, which I only point out is another partner that you all 
have in our efforts to----
    And, to my constituents and Americans--who I would be 
surprised if they are listening, but if they are listening to 
what I am saying--our security, as I said in my comments to 
you, is dependent upon the security of other people around the 
world. Our ability to combat viruses and infectious diseases, 
in part, is determined by the ability of other countries to 
contain and control and prevent, and we need the kind of 
investment that I think this fund, this account, represents.
    I hope that there is the coordination necessary--I guess 
this is really directed to both of you, but to our 
subcommittee, that we also pay attention to the other partners 
that I think make a difference in the region and elsewhere.
    Mr. Green. Senator, I agree. I communicate with or speak on 
the phone with Dr. Redfield regularly. We make sure that the 
information flows between CDC and USAID are clear and 
consistent. From fighting Ebola in eastern DRC to the challenge 
of coronavirus, absolutely, that communication is essential.
    Senator Moran. Thank you.
    Senator Graham. So, we will end on that note. I am 
listening if nobody else is. I think what you said made perfect 
sense. I met with Dr. Redfield and he wants to open up 12 
forward-deployed offices throughout the world so that we will 
have a presence in the place where highly infectious disease 
and viruses originates to get ahead of it there before it comes 
here.
    A good example of our investment in health security is the 
President's Emergency Plan for AIDS Relief (PEPFAR) program 
that was created during the George Walker Bush years, 43, which 
strengthened healthcare systems around AIDS eradication and 
malaria and that proved very important to stopping the spread 
of Ebola. So, we got a return on investment in a way we didn't 
think otherwise.
    We will put the following documents into the record: The 
USAID Sahel Development Partnership Initiative; the Strategic 
Prevention Project 2019; Stabilization Assistance Review 2018; 
World Bank Group Strategy for Fragility, Conflict, and Violence 
2020-2025; the Organization for Economic Cooperation and 
Development State Fragility 2018; USIP's Preventing Extremism 
in Fragile States--A New Approach.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

           ADDITIONAL COMMITTEE QUESTIONS

    Senator Graham. We will hold the record open for questions 
until Friday, 2:00 p.m.
    [The following questions were not asked at the hearing, but 
were submitted to the witnesses for response subsequent to the 
hearing:]
       Questions Submitted to Hon. David Hale and Hon. Mark Green
             Questions Submitted by Senator Lindsey Graham
    Question 1. The current conflict in the Sahel is one in which non-
state actors seek to undermine the legitimacy of states. Traditional 
conflict between herders and farmers is exacerbated by cooptation and 
manipulation by extremist elements. How important is strengthening 
governance to managing the conflict?
    Answer. Strengthening governance in the Sahel is critical to 
managing conflict between herders and farmers, as well as cutting off 
violent extremist groups' capacity to operate in the region. The State 
Department's diplomatic engagement strategy for the Sahel prioritizes 
improving state legitimacy; our foreign assistance programs support 
this strategy by enhancing local leaders' ability to provide more 
effective government services. A rights-respecting security presence is 
one such critical government service. In recent years, state security 
forces have committed human rights abuses with impunity against the 
civilian populations they are charged to protect as they pursue violent 
extremist elements. To address this problem, our security cooperation 
initiatives include an emphasis on respecting human rights and engaging 
productively with civilian actors. We also continue to exert diplomatic 
pressure on Sahel governments at the highest level to hold their 
security services accountable for abuses. Transparent judicial 
processes that hold perpetrators of human rights abuses accountable are 
one of the most effective means of improving governance in the Sahel.
    Question 2. What is the U.S. doing to prevent gender-based violence 
(GBV) and promote access to economic opportunities for women in the 
Sahel?
    Answer. The State Department and U.S. Agency for International 
Development (USAID) coordinate across the interagency to protect women 
and girls from violence and enable them to increase their political and 
economic participation in Sahel communities. A few highlights of these 
efforts in 2019 and 2020 include the following:
    In the Republic of Mali, USAID is strengthening the identification 
and reporting of GBV cases and professional provider/survivor referral 
systems; training paralegals on survivor-centered approaches; and 
building capacity among local civil-society and health institutions to 
advocate for, and respond to, the needs of survivors.
    USAID's partners in the Republic of Niger provide safe spaces for 
vulnerable girls and engage religious leaders to change community 
attitudes to end child marriage. In the Federal Republic of Nigeria, 
USAID helps prevent violence against women in elections and supports 
referral and protective systems for GBV survivors children at-risk of 
sexual exploitation and abuse.
    Under the White House Women's Global Development and Prosperity (W-
GDP) Initiative, the U.S. Government has deployed the following tools 
for African women entrepreneurs:
  --The Secretary's Office of Global Women's Issues committed $50 
        million to the World Bank's Women Entrepreneurs Finance 
        Initiative (We-Fi) to increase access to financial services for 
        women entrepreneurs, women-owned and women-led small and 
        medium-sized enterprises, and women customers of financial 
        services providers. We-Fi awarded $61.8 million of We-Fi 
        funding to the African Development Bank for its Affirmative 
        Finance Action for Women in Africa initiative.
  --The Bureau of Educational and Cultural Affairs launched the Academy 
        for Women Entrepreneurs in Ghana, Nigeria, Senegal, and seven 
        other sub-Saharan countries to promote and increase stability, 
        security, and prosperity for thousands of African women 
        entrepreneurs to fulfill their economic potential through 
        education, networking, and mentorships.
  --The U.S. International Development Finance Corporation introduced 
        2X Africa, a gender-lens investment guideline to invest $350 
        million to mobilize $1 billion in capital to support women-
        owned, women-led, and women-supporting projects in sub-Saharan 
        Africa.
  --USAID's West Africa Trade Hub financed grants for female 
        agricultural entrepreneurs and businesses that employ women, 
        including in leadership, and to integrate more female 
        participants into supply-chains. USAID Missions in West Africa 
        support women's empowerment through shea and cocoa value-chain 
        improvement projects.
    Question 3. How is the U.S. working to ensure that women and girls 
in the Sahel are represented in efforts to prevent and resolve 
conflicts in their communities?
    Answer. In support of the Women, Peace, and Security Strategy and 
the Strategy to Support Women and Girls at Risk from Violent Extremism 
and Conflict, the Bureau of African Affairs and the Secretary's Office 
of Global Women's Issues (S/GWI) bring together women leaders from the 
Sahel to share best practices on countering violent extremism (CVE) and 
program management. This initiative will increase engagement between 
women and other community leaders, provide technical skills, support 
women's leadership in CVE, and may provide psychosocial support for 
trauma related to violent extremism/conflict. Additionally, AF supports 
other work with women and girls. In Burkina Faso, we support women as 
effective leaders in CVE through literacy training, community 
engagement, and women's empowerment. The United States also ensured 
that UN Security Council Resolution 2480 mandated pressure signatories 
to include women in the Algiers Accord peace process.
    The impact of changing demographics (youth bulges), long-term 
development needs, and the detrimental impacts of climate change on 
countries in the Sahel is staggering. Niger's population alone is 
expected to triple to nearly 70 million by 2050.
    Question 4. Is it possible to focus on long-term development needs 
while combating extremism in the Sahel?
    Answer. Yes. Countering violent extremism in the Sahel is crucial 
for the stability, prosperity, and sovereignty of countries in the 
region. The U.S. Agency for International Development (USAID) works 
closely with host-country governments and communities in all sectors, 
and funds long-term development programming in education, water, 
health, livelihoods, food security, and humanitarian assistance. 
Continued investments in resilient development protect the gains made 
and help communities affected, directly or indirectly, by violent 
extremism. Violence and extremism flourish when governments fail to 
create inclusive, transparent, citizen-responsive, and effective 
agendas and policies that provide an alternative to radical groups that 
incentivize membership by paying meager wages, offering status, and 
providing an outlet to air grievances. Continuous, systematic, and 
calibrated engagement through stable aid relationships provides a 
conducive environment for private businesses, reduces dependence on 
humanitarian assistance, and paves solid pathways for self-reliance for 
communities, countries, and the region.
    Question 5. What is the impact of climate change on stability and 
security in the Sahel?
    Answer. The deteriorating security environment and weak rule of law 
present major challenges in the Sahel, in addition to recurrent natural 
disasters and environmental degradation. The suffering and extreme 
poverty confronting people in the Sahel is intensified by a combination 
of underlying conditions, including a pervasive lack of economic 
opportunity, limited energy access, population pressures, recurrent 
natural disasters, and environmental degradation. The State Department 
and USAID support long-term, multi-sector resilience programming that 
addresses these conditions. For example, MCC's $437 million Niger 
Compact is addressing two major constraints to economic growth and 
investment in Niger: lack of reliable access to water for agriculture 
and livestock and lack of access to markets. Using agriculture as a 
base, U.S. development assistance in the region builds sustainable 
local capacities to help families weather shocks and reduce the need 
for humanitarian assistance.
    Question 6. Are U.S. programs prioritizing the need to address the 
youth bulge and climate change in these countries?
    Answer. Harnessing the potential of Africa's tremendous youth 
population is one of the administration's top priorities in Africa. The 
creative and economic potential of West African youth could make the 
region a powerful engine for innovation in governance, technology, art 
and culture, and economic growth, but growing insecurity threatens to 
rob this generation of their ability to contribute.
    U.S. Government efforts such as Prosper Africa, Power Africa, Feed 
the Future, the Young African Leaders Initiative, and other development 
programs focusing on West Africa's advancement in health, education, 
livelihoods, agriculture, and nutrition pour tremendous resources into 
West African youth, women, and men. Many programs also improve climate 
information, early warning and preparedness, and natural resource 
management. USAID implements these programs in the context of growing 
violent extremism and instability and facilitates discussion between 
development and humanitarian actors to address evolving challenges.
    Question 7. What strategy currently guides US programs and 
activities in the Sahel, and which U.S. agency is in the lead?
    Answer. In addition to national-level strategies, State 
Department's Diplomatic Engagement Framework for the Sahel, approved by 
Secretary Pompeo in November 2019, focuses on three primary elements: 
increasing state legitimacy, supporting the implementation of the 
Algiers Accord in Mali, and improving coordination internally and with 
our partners. Our activities are also informed by the 2018 interagency 
Stabilization Assistance Review (SAR).
    As the SAR makes clear, conflict stabilization is inherently 
political, and therefore the Department of State retains policy 
leadership. The United States Agency for International Development is 
the lead implementer of non-security assistance, while the Department 
of Defense plays a supporting role. Effective implementation of U.S. 
strategy in the Sahel requires a coordinated and integrated approach 
across U.S. Government entities. The Special Envoy for the Sahel 
Region, who started work March 2020, will maximize coordination.
    Question 8. The Global Fragility Act of 2019 was enacted into law 
as part of the Further Consolidated Appropriations Act, 2020 (Public 
Law 116-94):
    How do the Department of State and USAID intend to implement the 
Act, and what are the costs associated with implementation?
    Answer. The NSC is coordinating an interagency process to implement 
the Global Fragility Act of 2019 (GFA), with the goal of completing the 
Global Fragility Strategy by late 2020, as required by the Act.
    The Department of State and USAID, alongside other relevant 
departments and agencieswill implement the GFA through a Global 
Fragility Strategy and associated 10-year Plans for Priority Countries 
and/or Regions, as required by the Act. The interagency will develop 
these plans through a collaborative, consultative, and evidence-based 
process during the Plan Development Phase, with the goal of completing 
the plans by late 2020, as required by the Act. The Department of State 
is responsible for leading the drafting and execution of the Global 
Fragility Strategy, which will emphasize the role for security 
assistance and diplomacy, especially preventive diplomacy, among other 
key aspects. As the Act makes clear, development assistance is a vital 
tool to address fragility, but effective action will require a whole-
of-government approach. USAID will be the lead implementing agency for 
non-security U.S. prevention and stabilization assistance in support of 
the Strategy, and the soon-to-be-operational Bureau for Conflict 
Prevention and Stabilization (CPS) will serve as the technical lead 
within USAID for stabilization and prevention, in collaboration with 
our geographic bureaus; the Bureau for Policy, Planning, and Learning 
(PPL); and other technical experts.
    The Department of State and USAID are currently assessing the 
technical and management requirements to help our posts and field 
missions plan for the implementation and monitoring of, and reporting 
on, the forthcoming Global Fragility Strategy and priority country and 
regional plans. We have not yet determined the costs of implementation.
    Question 9. Which agency is in charge of developing the 
comprehensive, 10-year Strategy, and what is the status of its 
development?
    Answer. The U.S. Department of State will lead the drafting of the 
Global Fragility Strategy and the associated Implementation Plans for 
Priority Countries and/or Regions through a collaborative, 
consultative, evidence-based interagency process coordinated by the 
National Security Council. The U.S. Agency for International 
Development will provide input.
    Question 10. What steps have been taken to create a whole-of-
government framework for the implementation of the strategy?
    Answer. The Directorate for International Organizations and 
Alliances within the National Security Council (NSC) is coordinating 
the administration's implementation of the Act, with participation from 
the U.S. Departments of State, Defense, and Treasury and the U.S. 
Agency for International Development; and other departments and 
agencies. This coordination began in January 2020, and has included 
several in-person meetings to discuss the criteria for selecting 
Priority Countries and/or Regions, and to ensure the forthcoming 
Strategy will build on integrated approaches to stabilization and 
prevention that are already in place.
                                 ______
                                 
                 Questions Submitted to Hon. David Hale
            Questions Submitted by Senator Patrick J. Leahy
    Question 1. The Sahel poses every conceivable challenge--poverty, 
weak and corrupt governance, violent extremism, intense competition for 
scarce resources, climate change--and they are inter-connected.
    If you could pick one thing we should do differently--or one thing 
we should focus on--to address what appears to be a steadily worsening 
situation in the Sahel, what would it be?
    Answer. In the Sahel, we need to continue, and even expand, our 
focus on improving government accountability and rooting out 
corruption.
    As noted in my testimony, corrupt, inefficient, and unaccountable 
governments have plagued the countries of the Sahel for decades. 
Citizens need to be able to rely on their governments to provide 
healthcare; economic infrastructure to increase job opportunities; a 
functional and predictable justice sector; credible elections; and the 
efficient delivery of education, water, and power. Unstable and 
unaccountable governments erode every state function and capacity. The 
U.S. Agency for International Development (USAID) is committed to 
multi-agency U.S. Government efforts to support policy-makers in the 
Sahel who are vested in fighting corruption. In addition, USAID 
recognizes that a healthy civil society and independent media are 
critical to holding governments accountable to their citizens.
    Question 2. Given the Department's recognition of the negative 
consequences of not meeting our obligations, your stated support for 
doing so, and the fact that the Department voted in favor of the 
current U.N. peacekeeping assessment rates and mission budgets, why 
hasn't the Department requested the necessary funding to pay U.S. dues 
for U.N. peacekeeping, including the legislative language necessary to 
pay above 25 percent of total peacekeeping costs?
    Answer. The administration's request reflects the expectation that 
the United Nations will continue to rein in the costs of U.N. 
peacekeeping, including through a continuing review of peacekeeping 
mandates. The request also reflects the expectation that other 
countries will assume a greater share of the financial burden of U.N. 
peacekeeping.
    Question 3. If Congress provides the authority and resources that 
are necessary to pay U.S. dues for U.N. peacekeeping in full, 
consistent with the Department's vote in favor of the current 
assessment rates, will the Department pay the full amount?
    Answer. The Department will continue to pay contributions for U.N. 
peacekeeping operations in accordance with applicable U.S. law.
                                 ______
                                 
       Questions Submitted to Hon. David Hale and Hon. Mark Green
            Questions Submitted by Senator Richard J. Durbin
    Question 1. What programs does USAID and the State Department have 
to assist climate refugees and to help countries in the region to 
address challenges wrought by climate change?
    Answer. The U.S. Agency for International Development (USAID) 
builds resilience in a holistic way to the wide range of shocks and 
stressors that occur in the Sahel, including those associated with 
environmental degradation. USAID's investments help communities in the 
Sahel mitigate the factors that drive populations to move, including 
conflict and lack of food and livelihoods. For example, USAID's multi-
sectoral Resilience in the Sahel Enhanced (RISE) program, which has 
operated in the Republics of Burkina Faso and Niger since 2013, reduces 
the chronic vulnerability of targeted populations to recurrent shocks 
and stress by expanding economic opportunities and livelihoods, 
improving agriculture practices, and facilitating better management of 
land and natural resources. USAID has bilateral programs in Senegal, 
Mali, and Nigeria that build resilience to both non-climate and 
climate-related shocks and stress. For example, in 2018 USAID helped 
more than 200,000 people in Senegal adapt to the effects of drought by 
using satellite data to guide pastoralists to water, which improves 
food security and reduces poverty.
    USAID's investments strengthen early-warning and monitoring 
capacity in the Sahel so stakeholders can intervene before food 
security deteriorates. For example, USAID recently contributed an 
additional $7.5 million to the Permanent Interstate Committee for 
Drought Control in the Sahel to help improve its seasonal forecasts and 
crop-monitoring reports. USAID funds the Famine Early-Warning Systems 
Network (FEWS NET), which provides early warning and integrated 
analysis of market, weather, and trade conditions to allow better 
planning to minimize food-insecurity. USAID has worked with the U.S 
Geological Survey of the U.S. Department of the Interior to establish 
baselines to monitor re-greening efforts across the Sahel effectively.
    Question 2. What is the State Department and USAID doing to help 
countries in the region to diversify their economies to mitigate the 
impact of climate change on traditionally agricultural-based economies, 
including mitigating the effects of droughts on the one hand and 
increased flooding on the other?
    Answer. Through the U.S. Government's Global Food Security 
Strategy, we are increasing resilience in partner country food systems, 
including those in the Sahel. Programs expand agricultural productivity 
and markets, increase natural resources related to food supply, and 
manage threats and risks. Expanding and diversifying livelihood and 
economic opportunities is key to inclusive and sustainable 
agricultural-led economic growth, strengthened resilience, and a well-
nourished population, especially among women and children.
    USAID programs improve climate information, early warning and 
preparedness, and natural resource management. They facilitate 
discussion between development and humanitarian actors to address 
evolving challenges of resilience and instability. Analysis found that 
USAID's agricultural investments in targeted value chains are lifting 
beneficiaries out of extreme poverty.
    USAID is leveraging its partnership with NASA to improve 
forecasting and tools for local authorities to use in decisionmaking on 
natural resource management. By using free and open source satellite 
imagery, USAID and NASA provide accurate and timely information on 
surface water availability and forage conditions, which is shared 
through cell phone text messages and local radio broadcasts.
    Question 3. The Gambia recently emerged from decades of brutal 
dictatorship and now has an opportunity to heal from those years and 
solidify its fragile democratic gains. The country has already taken 
the notable step of establishing a Truth and Reconciliation Commission 
and advanced the plight of the Rohingya as victims of crimes against 
humanity. Congress has provided specific funding to help Gambia's 
democratic transition:
    What is the Department of State doing to ensure adequate and 
enhanced Embassy staff and facilities to address this timely 
opportunity?
    Answer. Current staffing levels are limited by overall Department 
staffing and the limited office space in the current Embassy. However, 
post is working with the Bureau of African Affairs and the Overseas 
Building Office to move forward on an eventual New Embassy Compound.
    Question 4. What are USAID's plans to strategically use U.S. 
assistance to support Gambia's democratic transition?
    Answer. This response contains Sensitive But Unclassified (SBU) 
information, a separate response will be sent.
    Question 5. Russia and China have dramatically increased their 
commercial, diplomatic, and propaganda activities in Africa. Notably 
Russia has reportedly attempted to interfere in the democratic 
processes of countries on the continent. What is the Department of 
State doing to counter these Chinese and Russian efforts?
    Answer. The Department is committed to countering China, Russia, 
their proxies, or other actors undermine global norms and standards. 
The administration's Prosper Africa initiative, aimed at increasing 
two-way trade and investment between the United States and Africa, 
responds to the governance and transparency challenges resulting from 
exploitative economic policies employed by China and Russia. The 
Department is countering threats to electoral integrity throughout the 
continent, including supporting capacity building for civil society. 
The Department is countering foreign propaganda and disinformation 
campaigns in many ways, including by building journalists' capacity to 
ensure accurate and responsible coverage of elections.
    Question 6. What is the administration doing to help American 
businesses that hope to export to Africa compete against low interest 
and other concessional type Chinese loans that are difficult for 
African nations to reject, but come with troubling governance, human 
rights, environmental and labor standards?
    Answer. This response contains Sensitive But Unclassified (SBU) 
information, a separate response will be sent.
                                 ______
                                 
                 Questions Submitted to Hon. David Hale
          Questions Submitted by Senator Christopher A. Coons
    Question 1. The recently released GAO report on Diversity at the 
State Department found that despite some efforts, State Department 
personnel are still not representative of the rich diversity of the 
American citizenry. This is particularly true at the upper echelons of 
the service where the proportion of women and racial and ethnic 
minorities remains the lowest. Similarly, the proportion of women and 
African Americans at the Department actually declined over the 16 years 
that the GAO reviewed.
    What is the State Department doing to better identify and remove 
the barriers to diversity at State?
    Answer. The Department places high value on diversity and inclusion 
in its workforce and is currently developing a 2020-2024 Diversity and 
Inclusion Strategic Plan. We are exploring ways to increase our 
capacity to conduct barrier analysis. As a result of the GAO report, 
the Department will: (1) analyze barriers to passing the Foreign 
Service Officer Test; (2) analyze barriers to passing the Foreign 
Service Oral Assessment; and (3) analyze Civil Service promotion data 
for women and minorities. The Department's mandated response to the GAO 
report, due in August 2020, will articulate these plans in detail.
    In 2016, Congress passed a law (Public Law 114-323, section 404) 
that recognized that there are mid-career civil servants with 
``outstanding talents, . . . experiences, [and] . . . skills'' that 
would be ``extremely valuable'' to the Foreign Service. In March 2019, 
a GAO report (GAO-19-220) stated that since 2008, the largest 
persistent Foreign Service vacancies overseas have been in the economic 
and political positions at posts with State's highest foreign policy 
priorities. According to the GAO report, these are limiting the 
Department's ability to make informed foreign policy decisions. For 
example, according to the report, the Department has faced limits on 
``the amount of reporting on political and economic developments that 
posts in Africa are able to submit back to State headquarters.'' 
Similar vacancies--in in large countries in East and South Asia--have 
``limited those posts' capacity to engage with host government 
officials on important, strategic issues for the United States, such as 
reducing nuclear proliferation and enhancing trade and investment 
relationships with the United States:''
    Question 2. How does the department plan to address persistent 
Foreign Service vacancies?
    Answer. The Department of State's plans for reducing the number of 
vacant Foreign Service (FS) positions are outlined in an integrated 
action plan that was recently finalized and will be sent to the GAO 
next week. Our plans are a coordinated effort among the Bureau of 
Global Talent Management, and regional and functional bureaus. The 
Department's senior management in these bureaus receive regular reports 
on vacant FS positions and oversee new and ongoing initiatives to 
reduce FS vacancies such as the Special Incentive Post assignment 
season implemented in 2019. The Department can make this action plan 
available to you after it is sent to the GAO.
    The Department has addressed the need to fill urgent vacancies by 
processing postponements of mandatory retirements, especially in FS 
specialist skill codes, like medical and diplomatic security. The 
Department has also used a 'Recall to Service' for specific, high-level 
positions that require a certain level of experience and authority, and 
is currently running a pilot within several regional bureaus to assign 
Personal Service Contractors to fill IT positions in those regions.
    To address persistent Foreign Service vacancies, the Department 
plans to hire a projected 322 Foreign Service Generalists, and up to 
300 Foreign Service Specialists in fiscal year 2020. The Department has 
also made strategic use of limited non-career appointments (LNAs), such 
as consular fellows who are hired for a maximum of 5 years to fill 
consular adjudication positions.
    Question 3. Have you considered converting some Foreign Service 
positions to civil service?
    Answer. Yes. However, the Department does not have overseas 
positions which are classified as Civil Service (CS). The Department 
used limited non-career appointments , such as with consular fellows as 
noted in answer 2 , and we have not had to convert FS positions to CS. 
We have other programs which allow civil service officers to 
temporarily fill FS-designated positions, such as our Hard-to-Fill and 
Overseas Development programs.
    Question 4. Have you considered adding additional positions for 
civil service slots overseas?
    Answer. The Department has used limited non-career appointment 
hiring authority for civil service officers to temporarily fill FS-
designated positions. For example, in Mexico City we have had civil 
servants serve as contracting officers under limited non-career 
appointments. As noted above, the Department does not have positions 
overseas classified as Civil Service. We have a variety of methods for 
filling vacant FS positions.
    Question 5. Has the Department conducted any studies of 
administrative detail assignments that would support an increased 
number of Civil Service positions overseas?
    Answer. Yes, the Department continuously assesses its ability to 
fill Foreign Service positions overseas, and to staff the Department, 
and publishes those findings in our Five Year Workforce Plan. In some 
cases, those studies have led to positions that may be filled by Civil 
Service (CS) employees through multiple programs, including: the annual 
Hard-to-Fill Program, Department of State bureau-owned Developmental 
Positions, the Civil Service Consular Adjudicator Program, and the 
Overseas Development Program. There have been no formal studies 
conducted to determine whether there is a need to establish Civil 
Service positions overseas, or to increase the number of CS employees 
serving in Foreign Service assignments.
    Some studies have led to adjustments to our priority staffing cycle 
which is early in our assignment season. In 2019, changes were made to 
the cycle formerly known as Priority Staffing Posts (PSP--Afghanistan, 
Iraq, Pakistan), eliminating the term PSP and selecting a wider range 
of posts which are part of the Special Incentive Post program. These 
include historically difficult to staff posts in Africa.
    Our Bureau of Global Talent Management conducts regular evaluations 
on a range of topics relevant to the Foreign and Civil Services, but it 
has not conducted any studies focusing specifically on increasing the 
number of Civil Service serving overseas on administrative detail 
assignments. Civil Service employees accepting an overseas assignment 
temporarily fill designated Foreign Service positions. The Department 
does not have positions overseas classified as Civil Service.
    Question 6. Can you share the results of any studies?
    Answer. The Department's annually updated Five Year Workforce Plan 
can be found on its public facing web site. (https://www.state.gov/wp-
content/uploads/2020/02/Five-Year-Workforce-Plan-FY19_FY23-Final.pdf).
    Question 7. Has the Department consulted with other agencies that 
send personnel overseas about civil service detail assignments?
    Answer. Yes. USAID has opened some President's Emergency Plan for 
AIDS Relief (PEPFAR) staff positions to such details. The Department is 
doing the same by filling PEPFAR country coordinator positions with 
Civil Service employees on Foreign Service Limited Non-Career 
Appointments, through limited non-career appointment authority, which 
was also the subject of an OIG report recommendation.
    Question 8. Can you share the results of any consultations with 
other agencies?
    Answer. There have not been formal consultations, but there are a 
variety of existing forums with other agencies, where such issues are 
discussed, including the Chief Human Capital Officers (CHCO) Council.
    Question 9. What progress have you made on the GAO report 
recommendation to develop an action plan that is integrated across 
relevant State offices?
    Answer. The Department of State has finalized an integrated action 
plan and will send it to the GAO, as required. The action plan 
describes the methodologies the Department uses to analyze vacancies, 
the new and continuing initiatives aimed at staffing overseas positions 
and monitoring progress, the tools the Department developed to monitor 
and project staffing requirements, and the ongoing and re-designed 
programs the Department uses to augment the traditional staffing of 
overseas FS positions. The responsible office(s) and person(s), status, 
and projected completion date are provided for each initiative and 
program.
                                 ______
                                 
                 Questions Submitted to Hon. David Hale
            Questions Submitted by Senator Chris Van Hollen
    Question 1. Please provide an update on the status of negotiations 
with the Government of Sudan to reach a settlement agreement with the 
victims of the bombing of the USS Cole and the U.S. Embassies in Kenya 
and Tanzania: Do you expect that as part of any agreement the 
Department of State negotiates, Congress will need to approve immunity 
against future claims for the Government of Sudan?
    Answer. In February, Sudan informed us that it has reached private 
settlement agreements that resolve claims held by victims of the 2000 
attack on the USS Cole. The United States continues to discuss with 
Sudan the resolution of claims arising from the 1998 Embassy bombings. 
We are making good progress and hope to have important developments to 
share soon. We have been guided, in part, by our experience in prior 
claims settlements, including the 2008 Libya Claims settlement, which 
involved compensation paid by Libya in settlement of claims and 
legislation that restored immunities.
    Question 2. Please provide an update on the status of negotiations 
with the Government of Sudan to reach a settlement agreement with the 
victims of the bombing of the USS Cole and the U.S. Embassies in Kenya 
and Tanzania: Do you expect that as part of any agreement the 
Department of State negotiates, foreign service nationals and U.S. 
nationals will be treated equally?
    Answer. Because the U.S. Government cannot, as a matter of 
international law, espouse the claims of non-U.S. nationals, there must 
necessarily be differences in the treatment of claims of U.S nationals 
and foreign nationals. However, we expect that any bilateral agreement 
would address the provision of compensation for non-U.S. national 
victims and a specific process for distribution.
    Question 3. How would removing Sudan from the list of state 
sponsors of terrorism support democratic transition and allow for 
deeper U.S. engagement?
    Answer. Rescission of Sudan's State Sponsor of Terrorism (SST) 
designation would send a powerful signal regarding U.S. support for 
Sudan's new civilian-led transitional government (CLTG) and Sudan's 
transition to democracy, bolster its credibility at a time when 
domestic pressures are high, and remove a deterrent to private U.S. 
investors, who currently find the reputational risk of investing in an 
SST-designated country greater than the potential return on their 
investment. SST rescission would encourage other international partners 
to support the CLTG politically and economically and would remove a 
barrier to Sudan being able to clear arrears and access financing from 
international financial institutions. SST rescission would also remove 
a restriction on U.S. foreign assistance to Sudan, as well as certain 
restrictions related to dual-use and arms exports. However, rescission 
requires that the United States determine that Sudan has met all 
relevant statutory criteria and policy conditions.
    Question 4. What steps is the United States Government taking to 
counter Russian and Chinese influence in Sudan and how would those 
actions be impacted by a potential delisting?
    Answer. The United States is committed to countering China, Russia, 
their proxies, or other actors' efforts to undermine global norms and 
standards. We are working with international partners to support 
Sudan's civilian-led transitional government in a 39-month democratic 
transition. Rescission of the State Sponsor of Terrorism (SST) 
designation would strengthen our bilateral relationship with Sudan and 
remove a reputational barrier to U.S. private sector investment, 
steering Sudan away from malign actors who do not share our interest in 
a democratic and stable Sudan. However, Sudan must meet all relevant 
statutory and policy criteria before the United States will initiate 
the process of SST rescission.
    Question 5. The interagency plan to implement the Global Fragility 
Act is due on June 17, 2020. What is the status of the plan's 
development?
    Answer. The Global Fragility Act (GFA) requires the establishment 
of a comprehensive, integrated, 10-year Global Fragility Strategy 
(GFS), with a report due to Congress by September 15, 2020 (within 270 
days of enactment). The administration is committed to submitting the 
report to Congress by the September 15 deadline, provided the ongoing 
response to COVID-19 does not necessitate a change to this timeline. 
The White House is coordinating an interagency process on the GFA with 
the State Department leading GFS development in consultation with all 
relevant stakeholders and Congress. The GFA will build upon ongoing 
U.S. Government initiatives to more effectively stabilize conflict-
affected areas, prevent violence, and reduce fragility globally.
    Question 6. Do you expect that the Sahel will be one of the 
priority regions designated in the plan?
    Answer. We plan to use the Global Fragility Act to build upon 
ongoing initiatives to improve how the U.S. Government works to 
stabilize conflict-affected areas, prevent violence, and reduce 
fragility globally. The White House is currently coordinating an 
interagency process on the GFA, and the State Department is leading the 
development of the Global Fragility Strategy. We are committed to 
consulting with all relevant stakeholders, including Congress, as we 
develop this strategy and we intend to consider the Sahel in this 
process. We have completed the development of a Fragility Framework in 
a Sahel country, Burkina Faso, that sets out an approach to 
stabilization that coordinates U.S. diplomatic, defense, and 
development actions. We are also evaluating the conditions of other 
Sahel countries and neighboring littoral states as we develop the 
Global Fragility Strategy. As we move towards implementation, we will 
likely seek to prioritize legitimizing and expanding state presence in 
areas where it is not present to include strong private sector 
involvement for job creation and economic opportunity.

                          SUBCOMMITTEE RECESS

    Subcommittee stands in recess. Thank you.
    [Whereupon, at 3:30 p.m., Tuesday, March 10, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
